No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES

ALICE GUAN (YUE GUAN),
Applicant,
v.

Bing Ran
Respondent.

On Petition for Writ of Certiorari to the Supreme Court of Virginia

APPENDIX (Total 95 Pages)
Volume 1 of 3
For the

Petition for Writ of Certiorari

Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
Reston, VA 20190
617-304-9279
AliceGuan2021@gmail.com

TABLE OF CONTENTS of APPENDIX
Page
Judgment, Supreme Court of Virginia (January 11, 2021)

1-A

Order Denying Petition for Rehearing, Supreme Court
...........................................

2-A

Judgment, Alexandria Circuit Court (May 22, 2019).......

3-A

Order Alexandria Circuit Court (February 27, 2019).......

7-A

Contract Between Petitioner and Respondent...................

9A

Amended Order, Alexandria Circuit Court (May 13, 2016)

13-A

of Virginia (March 26, 2021)

Proposed RESPONSE IN OPPOSITION TO COMMONWEALTH DEFENDANTS’
MOTION TO DISMISS (“MTD”) 1st AMENDED COMPLAINT (“1AC”), IN THE
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
VIRGINIA, Civil Case No. l:21-CV-752-RDA-TCB (August 20, 2021).... 17-A
RESPONSE IN OPPOSITION TO DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S (“EMPLOYEE DEFENDANTS”)
MOTION TO DISMISS (“MTD”) PLAINTIFF’S 1ST AMENDED COMPLAINT
(“1AC”), IN THE UNITED STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF VIRGINIA, Civil Case No. i:21-CV-752-RDA-TCB (August 19, 2021)
39-A

Sworn Statement by Petitioner on the Content of Her Oral Argument
in Front of a 3 -Justice Panel of the Supreme Court of Virginia .......... 61-A
Petition for Rehearing En Banc............................................................... 67-A

MEMORANDUM IN SUPPORT OF DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S MOTION TO DISMISS PLAINTIFF’S
1ST AMENDED COMPLAINT, Case No. L21-cv-00752-RDA-TCB...... 80-A

i-A
J*ithe Supww Ow* efVmginiaMd at tfie SapHtnu, Gmv.1 SSuildumUi tIU
Uty- of Utidimand on Monday, the 17t& day. of. ^xmiiaHy, 2021.
Alice Jin-Yue Guan,
against

Appellant.

Record No. 200995
. Circuit Court No. CL07003662

Bing Ran,

Appellee.
From the Circuit Court of the City of Alexandria

Upon review of the record in this case and consideration of the argument submitted in
support of and in opposition to the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses the petition for
appeal.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

f

Deputy Clerk

JZ-P>
VntGUNIA:
in. the.

Alice Jin-Yue Guan,
against

Appellant,

Record No. 200995
Circuit Court No. CL07003662

Bing Ran,

Appellee.
Upon a Petition for Rehearing

On consideration of the petiflon of the appellant to set aside the judgment rendered herein
on January 11,2021 and grant a rehearing thereof die prayer ofdie said petition is denied.
Upon consideration whereof appellant's Febmaiy 9,2021 amended motion to angment
the record is denied.

A Copy,
Teste:
Douglas B. Robeien, Clerk
By:

d*ldt/»4^vajO
Deputy Clerk

s

V
t

6

f

3-A

■?

&1

? VIRGIN!*

Bs THE eiRCOrr COURT FORtHE CITYOF AiEXAJSDma
^liCEOT-YOS SIXAIN
}

:
?

}

-m.

'

*■•■

*

3

&

s- .

r

v.

5
3

r-c,

BING SAN,

\

J.

^*7003662

3
3
3

?

1.

*}
*

>
[S

t!
*-*
*
;

aianceefRdle to show CaGserIssuance ofRulete Showcase*
«.

□r^tiy^RnietoShow Caused

j

r

*

Ja<

aeai? Kamtirs Affidavit and
Petition for fesnance ofPole to Show Cause and ibrSe
**
A

r

Plaia&fsAffieaded Motfonfer Entry

j

-

s

r

E

nle toShowCause. and for ..

ap^wraaa and terised Affidawtandpshfafl fe
DeSaBitojy Jodgmeat, and or Setting 'ftM to

«

sJ

ioo/or Emergen^ Motion to Stay April 24, 2019
sttt&saEd topees®

y

tmlilPs i^folioH for

t !

r
?

4-

J5

dtaad Petition for

KsItr.VtT^a

j

P

ofRufetaSlaQw

\

rr
S

\l
El

▼

- 8107 -

ii

n
\
;

ierDefendants Reply

s

)
!

to WamHFs SeoondSEpptemeQtaiandBeoisediiffidaiiftanaPelition for tssoaneeof

u

i

itandfer SeHiagTifal toDetennhie

(j
i

i

s

B*

:■

!.i
;•

H

Ruleto show Cafe and Defai&flfEAfBdavit andrstfflonfcrfisnaace oEJtetetoShow

i

U
?1

n

%i

>ssest6Rul£to

i
:

Show Cause.
mu & OTSARMG tot3ie OO^to^eiSlfMmgr^efgranted; itls3

f

im&ms Ocwt raifes firoia the beach oa May 22,2019 ishere&y Ineoip^tea in
.- »
Lfr

ORDERED, ADJUDGED and BEC^ESD as follows:
x.
m

yz &mi Cause filed m
SSi

e

ie

Show Cause fiM oa February 22*2019, and as presented at fee Rearing m May aa,
2019:
2.

fsMay

\

13,2016 Amended Sfml Order,
3-

Properly SetSeateBi Agreement©!1 Beceuiber ig, 200& has beccase the governing
agreemsBticatbeititffla theAmendment.
**

4.

Vl

5

i* .

•fc.

619 are denied

a

i

;

'S

*

s
'

;

\

}
3

-810S-

i
i

• l »•

s

:o

t-Si

*«a**aiTO*wI**talaetSMBtoShcOoai&MteW
Qjy Judpseat asdfoFSeffin*g
** to Be»
.mm ^ e!^iteertEa <Bd

teal fc May n, 2019

^ (w

speciScaOjrfiittlsaQ(|nilra in that regard liat the $^,2^(5
oa-wras.juipR3per]y removed ty
H&toliff; aadtkaisald ^ieS«WMre^OTWyaetofchdoj^((ii!jtoAds.
aaS uotthe PJamtiffindraduagy.
&

iaifeerordsrcfthi9Conrt,enjolningherfromliaiTOg any contactwith
SSiploj^g, attorneys aBct/or diems «s wett as ^Aalag her
&

PXamti& is perman^i^^H^ until former

feoaa: i^esae^rto toird parties that s&r

anyAdSTM
any

order of tMs Court,

6®e 51% majority shareholder of

AdSTM* asslie is 4$$£.
Pursuant to r«^da Code §8.01-631(4) this
u,er®°?« ««* Oat ft wwW be improper

fiftdSj aad

,QJuiecessaiy to reqiare

Defendant to ppstAlwndpiHsaaut to this permanent infsnefeai.
&

“Ehis Court touts m& rules that 15M

paragraph i& irftoe p§&

Kag *** PrewBed in tins matt®, finds the fees 1
e set i»i iaj Defendaurs'
Atto^-Fe*,
unoevraenee aartag a,e
^^
»efete<®abte.and ordespj^tifftop^ Defendant
'IHfi adjudication ot

-81Q9 -

°1‘

*

6- A
Entered th^

7^.

JUDGE

mnAGl
JfS

l
439

'V^rss^f1^36179
Pixc

[&, ~

m

Phone: (571) 551-2678
Fax; (571} 599-3672.

SEM.AN0-

212-163

Opedo.lL 32765

Pt»o»e; 703-628-^500

Phone: 407-402-8178
Email; aUffieenaw jn^a
Saafl:

tnfn

-8110-

Sw##5

7--3
VIRGINIA?

.

**■

IN THE CIRCUIT COURT FOR THE CITY OF ALEXANDRIA
ALICE JIN-YUE GUAN,
Plaintiff,
v.
BING RAN*
Defendant.

)
)
)
)
)
)
)
)
)

CL07003662

GgJ>ERGRANYING TEMPORAW
4

THIS MATTER came to be heard upon the Defendant’s Motioa,fbp Entry of
Rule to Show Cause and For Temporary Injunction filed agsrfhst the: Pfc&fiff,
ALICE.JIN-YUE GUAN,
A3® IT APPEARING to the Court that the Mowing relief shoidd be- gfahted-;
it is, hereby,
ORDERED, ADJUDGED and DECREED as follows;
L

A temporary Injunction against the Plaintiff is hereby granted
enjoining her from having any contact with any AdSTM employees,
attorneys
and/or clients as well as enjoining her from having any physical aceess^foany of
AdSTM‘s offices and properties.
2-

Plaintiff is hereby ordered to immediately return any funds- or

properties of AdSTM that she m ay have improperly acquired, and to immediately
close an,

AND THIS CAUSE ISCONllMi ID,

■JHpId.

9~A
iarteredrthis

tiay-of-^ebmaryrSOi^r

7 Jtm&E

^No.: 36179
Schinsto
B
4g9 N. Leeistr-eat___
£&an<Ma, V& 22334
Phone: (571) 553.-2678
Pax: (57l)^99“3672
Email: ^ghmstQek^sehinsioeidaw.mffl
Counselfor Defendant
MML
* .

aaaroANP.yl
/

ih®

Fin?
42S
8X2-*$$
04Mo, FL 32765
Rhone: 703-628-4500
Phone: 407-402-8178
Email: aIiceguan.gQlf@amaii.mm
Bmail: Mteuan.86@gmgikeom
PlaintiffPro Se

-6913-

7-4

Ammdmen. 6. tbeOrfgtnal A**™,*,, (SigBe(i OB Dea ls
2006)
Between Yue Goan and Bing Ran

October 15,200$

Bmg and Yue agree:

going the buy and sell contract;
c. 4/1/2009, $67,500+4% interest:
d. 7/1/2009, $67,500+4% interest
e. 10/1/2009, $67,500+4% interest
£ 1/1/2010, $67,500+4% interest
g. 4/1/2010, $67,500+4% inteppsth. 7/1/2010, $67,500+4% interest
i. 10/1/2010, $67,500+4% interest
J* 1^1/2011, $67,500+4% interest

sole property.
onBkJPaym^^Smadecorrectl>r
claim any part ofit Inadditi
agreement citing-«.

Jot *

iiXssaEstr

mthe

The validity ofthis term is based on the completion oftee teem 1 in this amendment

^o^toA^MtaSSwh^S'*1*— *“*'**■avma 31% <■»« ««««.
4. Yue shall be President and Secnagy ofAdSTM. Ba.hrilti.fwn__ ^

gss^gSSSSSSSS*—"
The maximum

Initial:

1/4

10/15/2008

to-A
ieQrm

^muntil^Baiisnbasieachei YurfsddegatmmriijgftcaniKJtberemove&rflB

bfetoofftis^re^pHs^Mrfwficgstodc). Yue has wmmlete accesses

^^sssssess^sssss.
Xu? fd

S^havefee same saW and bonus, other benefits and the profit
^oln AdSTM. Minimum salary Bonus ofYue oi/and Bine will bs Si 50K
ISf?? P^e Yue or/and Bing with the company cars, fee ^charge, by thek*
cparterto^S’S.
8' B°^?^ nndSing sbafl be sigpiera ofafi AdSTM and ife sub*cotnpanies' bank
^Tnnn
cihecks, over-counters, and wiring) over
ForallsubcSrs’payments,

oto corned?83 813 066364 &r

any subcontract from AdSTM's to

*0\2J 1™5® sh^s “^needed for hiring any futoe Yue or Bing's fimily members,
SStiXT*? BlD^f
OT
However for Yue’s brokers, Yu Guan
andFm Guan, they will be contnmously hired by AdSIM accenting to following terms:

be $75,000yyear and Yu Goan’s salary toU be $90,000/year starting
10/16/2008. Each ofdiem will give Bing Ran half oftheir net Incomes front AdSTM^
(except Yu Guan can keep his income for the period of7/1/2008 to 10/15/2008). Ifthey
do not pay Bing on amonfhfybasis and still do not pay Bing after Bing’s reminder, then
£S SjSff0?1*8 wl&AdSTM shall ba terminated. However, ifthey work on projects
later aaa their Hours are cnargea to me government as direct labors, then they shSinot
Bing for airy those Incomes. After AdSTMTs annual revenue drops below $3 million
dollars/year, Yu Guan and Fei Gnan will be continually hired by AdSTM without pays
and they will pay their insurances through AdSTM plan.

Bingagreed for Yue to hireMby HI «i& AdSMMcmttaeta support Yu Guan

and Fei Guan’s HI and Green card visas.

Initial:

£* l.K

2/4

10/15/2008

t\-fy
aSsGraiL*°^*"°^^^-*to'OTbraa®**«»sbyto sametarnsasYuGuan

as “Termination
Date ), at Bing’s option, Bing shall buy additional 20 shares
of
AdSTM
stocks from Yue
at ten cents per share.
tobare any 8(a) contracts prior to the Tennination Date, or ifBine
t
*
Yue s certification to maintain its 8(a) status prior to the
mS6^Sl2lS?I,in^Date
to feat earlier date. If the terms 5

those trips. This is not part ofthe $1300.00/month expenses.

P

^ff9%S^a(^^^CWW,li,!hWfflteaC^
e^^^^S"toPU^°f8ainfagSOme^
b. The agreement Bing has with the company haentnpg valid;
c. If Bing brings 2.75 million dollars into company in three years; and
in

ihSK “* n° CWlfliCt intere5ts tfAdSTM,s officers help and participant

16. If this company pays Bing’s health insurance then it shall pay for the health
insurance for Yue and their two daughters as well.

The meetmpminqtes dated 6/30/2008 and 7)1/2008 are also voided anA
------•.Iffrns
amendment is breached, then the original agreement will
governmg
agreement
18. For the past operations at AdSTH both Bigg and Ytte have been
andteyjilajmra. Baft bare ams^lrat In dnltarifttfliing Bing and Yue are

Initial:

BJL-

m

10/15/2008

Y*iJ**Gr
*

/£-A

SdsIrSS6
133088 reIated t0 ^ DCAA, VA states taxation,
andSBAaadb^shatt^tog^torsolveaaytasjnayfteyanse.
7/1

^^

& corporate document andfiles prior to

7il^^^^atefcto1tad«BM„01Imt BtosmdYni-dii.il

notflmataieadioaBrffl-Woe asy fepl action agS^iS. B’ngandY”BsM

Date:

Bing Ran

Date:

’S&ftiuan

io(tcm
J•/*£&£-

fi—MBMK TajflW^

fr.Ntfc Ctiftrt

i
S

sol number ;^5

Vfe\ 388681

Xjttnrttfy

NofeiyPabilc

Initial:

§
my
<&
•OS COMMISSION 5

4/4

10/15/2008

t

13-A

i

VIRGINIA:
IN THE CIRCUIT COURT FOR THE CITY OF ALEXANDRIA
ALICE JIN-YUE GUAN,

)
)
)
)

Plaintiff,
"MS.

)

Civil Action No. CL07003662

)
)
)
)

BING RAN,
Defendant.
RM&tfoEP

ORflFT?

THIS MATTER CAME ON FOR TRIAL before foe Court on August 31 through
September 2,2015, on foe Court’s Rule to Show Cause dated October 20,2014, as to why the
Defendant, Bing Ran, should not be held in contempt for failure to pay amounts ordered to be paid
to foe Plaintiff, Alice Jin-Yue Guan, pursuant to the Court’s Final Decree of Divorce dated
November30,2007;
And foe Defendant, by his Motion to Modify Decree ofDivorce filed May 1.2015, having
moved foe Court for incorporation info the Final Decree ofDivorce an Amendment, dated October
15,2008, to foe parties’ Property Settlement Agreement dated December 15,2006, which was
previously incorporated into foe Final Decree of Divorce;
And foe Defendant, by his Motion for Attorney’s Fees filed February 9,2015, seeking an
award of his reasonable attorneys’ fees incurred in tins subject litigation;
And foe Court having heard and considered the testimony offoe witnesses and the exhibits
and other evidence presented at trial;
COTT1W5U.

Fi-etciwk
SqHNSTOUK

Baktou &

CnrrxKU.

And the Court having considered the proposed findings offact and conclusions of law and
briefs filed by foe parties in lieu of closing arguments;

A ivntraotttd unqnmittut

5845 RMimorid HMnray
SuIlefiOO
Alexandria, VA 22303
P: 701834,2720
F: 703.834.9036

766
- 2823 -

175

(

i

l
And the Court having set forth is findings of fact and rulings of law in a Letter Opinion
<&ted December 22,2Q15, which Letter Opinion is incorporated herein and made a part hereof by
reference.
NOW THEREFORE, it is hereby ORDERED, ADJUDGED and DECREED:
I,

That the October 15, 2008 Amendment to the parties* Property Settlement

Agreement (the “PSA**) dated December 15, 2006, Exhibit A, attached, be the controlling
document in this matter from the time of its execution until this litigation, and is for that purpose
incorporated into the parties’ Final Decree of Divorce, pursuant to Va. Code § 20-109(C). The
PSA is tiie controlling document from October 10,2014 and continuing thereafter.
2.

The terms of the October 15 amendment and the PSA shall be applied utilizing the

numbers generated from Mr. Rosenberg’s expert report on behalf of Mr. Ran, as set forth in Mr.
Rosenberg’s report (Defendant’s trial exhibit 79 and Mr. Rosenberg’s attached exhibit 1). The
overpaid amount in thatreport is $1,976,899.
3.

That the alleged 2008 overpayments to Ms. Guan claimed by Mr. Ran in the total

amount of $2,462,083, as enumerated in Mr. Rosenberg’s report and his exhibit 1, taken by Ms.
Guan from Advanced Systems Technology and Management, Inc., a Virginia corporation,
(“AdSTM") during the period Januaiy 1, 2008 through June 30, 2008 are her separate property
and ate not offsets against amounts subsequently accruing to her under the PSA, the October 15,
2008 Amendment, or otherwise.
4.

That AdSTM therefore owes Ms. Guan a total of $485,184 in salary, bonus and

profit distributions pursuant to the October 15, 2008 Amendment and tire PSA fbr the period
Ccrrmuu.
purftlMKH

through March 15,2015. Mr. Ran shall guarantee that AdSTM pays this amount to Ms. Guan.

Sea INSTOCK
Bartol &
CurrM»j.

Prejudgment interest at 6% shall accrue on this amount from October 10,2014 until paid.

A ivnAKfttsticbfiivtfnikm

5845 Richmond Highway
Soho 600
A!a«m<Me.VA 22303

emwMMt

2

767

-2824-

n 6c

o

r

i

A
5.

That as of October 15,2008, the initial $50,000 installment of Spousal Support

required to be paid by Mr. Ran to Ms. Goan pursuant to the terms ofthe PSA and toe Final Decree
ofDivorce had accrued and remains due and payable by Mr. Ran, but that the remaining $200,000
Spousal Support payments, in annual $50,000 installments beginning on July s, 2009 and

continuing through July 5, 2012, were waived by the October 15,2008 Amendment to the PSA
and the parties’ subsequent reliance upon the terms ofthat Amendment
6.

That, for the reasons previously stated, Mr. Ran is therefore justly indebted to Ms.

Guan in toe amount of $50,000 and AdSTM is indebted to Ms. Guan in the amount of $485,184,
plus prejudgment interest Hie total amount indebted to Ms. Guan is accordingly $535,184, plus
prejudgment interest described above
7.

That toe $50,000 ofalimony is entitled to simplejudgment interest of6% from July

5,2008 through May 13,2016 and thereafter until paid in fell by Mr. Ran, all as set forth in the
following attached Vader interest arrearage calculation.
8.

That the Court finds that, due to the toots and circumstances of this case, including

the imprecise and confusing language employed by toe parties in their various agreements, the
Court will withhold a finding of contempt, provided that Mr. Ran and AdSTM, satisfy in foil the
sums owed to Ms. Guan as set forth in this order including interest, within 10 days oftoe entry of
this Order.
9.

The parties* motions for an award of attorneys’ fees and costs are denied. Bach

party shall bear their own costs and attorneys’ fees.
THIS ORDER IS FINAL.
COTTHEU.
Fun-CHftK •
SdllKSTOCK

ENTER this ft day of

j, 2016:

Bahtoi. &
COTTBEU.

A itofaaftiKd raqmafiro
SMS Richmond Highway

4^^

Suite 800

—Q
Jame^C .Clark, Circuit Judge

Aleanrfih,VA22303
fc703.a3S.2770
fc 703.B36.9Q8&

3

768

VU
- 2825 -

----------

- - -» -t——-

.

r

f,
.1

SEEN AND OBJECTED TO, for the reasons stated in Plaintiff’s Proposed Findings of Fact and
Conclusions of Law and her Reply Memorandum, including but not limited to her entitlement to
spousal support post-July 5,2008; and the Plaintiff’s Motion and Reply Brief filed in
connection wife the attorneys’ fee motion, and the exhibit proffered in court on May 13,2016.

.b

John Thorpe Richards, Jr., Counselfor Plaintiff
SEEN AND OBJECTED TO for fee reasons stated in Defendant’s Closing Argument
Memorandum Setting Forth Defendant!*-} posed Findings ofFact and Conclusions of Law
filed with fee Court on NovemJ>ef^2015 js^vell as Defendant’s January and April, 2016,
pleadings filgdin this cause;dnd as arguRpbn May 13,2016.
jC

vSchmstock,

iunst

\r Defendant

COTTHKLL
Fl.ETCHKR
bMlKSTUCK

Baktol &
Comaej.

AniA9eMBTCkfl|Msshta

5845 Rkftmowi Highway
Suite BOO
AtexandrfB,VA22303
PS 703*363770
fi703.836.90S6

4

769

- 2826 -

X1GI

No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES

ALICE GUAN (YUE GUAN),
Applicant,
v.

Bing Ran
Respondent.

On Petition for Writ of Certiorari to the Supreme Court of Virginia

APPENDIX (Total 95 Pages)
Volume 2 of 3
For the

Petition for Writ of Certiorari

Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
Reston, VA 20190
617-304-9279
AliceGuan2021@smail.com

TABLE OF CONTENTS of APPENDIX
Page
Judgment, Supreme Court of Virginia (January 11, 2021)

1-A

Order Denying Petition for Rehearing, Supreme Court
...........................................

2* A

Judgment, Alexandria Circuit Court (May 22, 2019).......

3-A

Order Alexandria Circuit Court (February 27, 2019)....... .

7-A

Contract Between Petitioner and Respondent....................

9-A

Amended Order, Alexandria Circuit Court (May 13, 2016)

13-A

of Virginia (March 26, 2021)

Proposed RESPONSE IN OPPOSITION TO COMMONWEALTH DEFENDANTS’
MOTION TO DISMISS (“MTD”) 1st AMENDED COMPLAINT (“1AC”), IN THE
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
VIRGINIA, Civil Case No. L21-CV-752-RDATCB (August 20, 2021).... 17 A
RESPONSE IN OPPOSITION TO DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S (“EMPLOYEE DEFENDANTS”)
MOTION TO DISMISS (“MTD”) PLAINTIFF’S 1ST AMENDED COMPLAINT
(“1AC”), IN THE UNITED STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF VIRGINIA, Civil Case No. i:21-CV-752-RDA-TCB (August 19, 2021)
39-A

Sworn Statement by Petitioner on the Content of Her Oral Argument
in Front of a 3-Justice Panel of the Supreme Court of Virginia .......... 61-A
Petition for Rehearing En Banc..................... ......................................... 67-A

MEMORANDUM IN SUPPORT OF DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S MOTION TO DISMISS PLAINTIFF’S
1ST AMENDED COMPLAINT, Case No. i:21-cv-00752-RDA-TCB.......80-A

17~ A
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

Alice Guan

)

Plaintiff,

)

v.

) Civil Case No. l:21-CV-752-RDA-TCB

Gary Bell, et al.

)

Defendants.

)

Proposed RESPONSE IN OPPOSITION TO COMMONWEALTH DEFENDANTS’
MOTION TO DISMISS (“MTD”) 1st AMENDED COMPLAINT (“1AC”)
Plaintiff, Alice Guan (I, me, my), hereby submits aforementioned response in opposition, and
in support of such, I respectfully state the following in which, I have employed the same
terminologies as defined in 1 AC:
In the attached Exhibit A herein, I have identified by underlining all facts and content stated
by the Defendants with which I disagree. Exhibit B attached herein is my Affidavit that set forth
my version of the facts (most of which is already contained in 1 AC) which are utilized here in
this writing.
Although MTD raised new facts, referenced exhibits, or made certain statements by
Defendants’ counsels, for the purposes of deciding a motion to dismiss, the District Court may
not consider exhibits, would not consider alleged facts that went beyond scope of those pled in
the 1AC, or statements by counsel that raise new facts constitute matters beyond the pleadings.
Marshall v. Marshall. No. 3:20CV442 (DJN), 2021 WL 785090 (E.D. Va. Mar. 1, 2021);
Fed.Rules Civ.Proc.Rule 12(b)(6), 28 U.S.C.A. Buffalo Wings Factory, Inc, v. Mohd. 622 F.
Supp. 2d 325 (E.D. Va. 2007). I hereby provide a summary in opposition to the MTD which
applies to more than one section in the MTD.
1

ig~A
I have personal interest in both liberty interest and property interest, and I have lost that
liberty and property, the loss is ongoing. Defendants, through their conduct in and out of courts
related to Case 1664 and Case 3662, deprived my liberty and property without procedural due
process of law. I have been deprived of a recognized and protectable interest in life, liberty, or
property. (Wilkinson v. Austin (2005)). Defendants deprived my liberty interest without
procedural due process of law, deprived my property interest without procedural due process of
law, subjected me to injunctions without procedural due process of law, and deprived my liberty
and property without substantive due process of law.
1 AC is adequately pled because it contained adequate background, adequate allegation, and
clear and plausible claims for which relief can be obtained. 1 AC included the required alleged
facts giving to plausible entitlement of relief.
Defendants violated Decree that was established based on the state law, interfered with
performance of the private agreement that was made into a state order per state law.
Defendants subjected me to a deprivation of rights, privileges, or immunities secured by the
Constitution and laws. Defendants caused me to be subjected to a deprivation of rights,
privileges, or immunities secured by the Constitution and laws. Defendants also Abridged my
privileges or immunities secured by the Constitution and laws. Those deprivations have
commenced in 2019 and those deprivations are ongoing and will continue into the future.
Defendants deprived me of the equal protection of the laws, including but not limited to
discrimination and harassment. Defendant violated Fourteenth Amendment.
Per Decree, I possess a liberty or property interest. This state law established Decree creates
my liberty and property which are sufficiently recognizable to demand due process protection. In

2

/f-<4
particular and for example, based on the allegation the protectable interests include but not
limited to money (about $2.3M) (Nelson v. Colorado (2017)); real or personal property (2% of
my stock) (Board of Regents of State Colleges v. Roth (1972)); employment (my employee
employment has be altered into a 1099 consultant) (Roth; Stotter v. University of Texas at San
Antonio (5th Cir. 2007)); education (lack of employee status, lost ability to receive education or
advanced education paid by AdSTM) (Goss v. Lopez (1975)); corporate control, board position,
official position, decision making rights, physical well-being, health (Davidson v. Cannon
(1986); Daniels v. Williams (1986)); benefits (lost when employee status and officer and director
positions were lost)(Mathews v. Eldridge (1976); Goldberg v. Kelly (1970)); etc. I have been
deprived of that interest since May 22, 2019 and on-going through current time and will continue
into the future. Negligence, corruption and bribery, intentional and deliberate act constituted the
deprivation of property and liberty leading the deprivation itself concerning the rights secured by
the Fourteenth Amendment.
The intentional deprivation of my liberty and property was planned, a pre-deprivation
process is feasible, but defendants failed to provide, thus violated the Due Process Clause. I
have lost liberty and property through acts that were not random, and I did not receive adequate
pre-deprivation process that could have been provided to prevent the deprivation.
I did not receive sufficient process with respect to the aforementioned interest and
deprivation. For the loss of the 2% ownership, I even did not receive notice of the possible loss.
For all losses, I did not have an opportunity to be heard by a neutral decisionmaker in a
meaningful manner. Defendant James C Clark had already been bribed and also for other
reasons stated in 1 AC, he was not a neutral decision maker, and none of the what he conducted
was in a meaningful manner. Thus, the absence, the insufficiency of process surrounding the
3

deprivation led to the occurrence and the on-going occurrence of violation of Fourteenth
Amendment.
Even if I were properly deprived of liberty or property, which is not the case, but because
I did not receive adequate process, constitutional violation still occurred. Liability exist because
defendants engaged in constitutionally violative conduct, in addition, the courts endorsed the
violation, and a procedural due process violation occurs when the courts and other defendants
have not accorded all the process due with respect to a willful deprivation of liberty or property.
Defendants violated First Amendment when I have been denied and continue to be
denied the opportunity to speak. Defendants also violated federal law by restraining my physical
movement and my rights to associate. Defendants violated Firth Amendment when my properties
(for example: about $2.3M, 2% ownership) were taken without just compensation void of
substantive due process. Defendants committed outrageous and constitutionally arbitrary
executive misconduct that is so egregious as to shock the conscience without substantive due
process. Defendants violated Eighth Amendment because Defendants acted with deliberate
indifference when they deprived and continued to deprive my aforementioned rights.
Defendants impaired contractual obligations (U.S. Const, art. I, § 10, cl.l) for a § 1983 claim.
Pure Wafer Inc. v. City of Prescott (9th Cir. 2017).
Defendants also violated the Fourteenth Amendment by voiding substantive Due Process
and Failure to Act. I have reported to the circuit court, of those federal rights violations but it
stayed silent and failed to act. Their inaction is implicit-but-affirmative encouragement,
resulting in the exacerbation of my harm, risk of injury at the hands of third parties, subjecting
me to harms I would not have faced but for the state action.

4

Defendants also violated the Fourteenth Amendment by voiding substantive Due Process
and Failure to Act. Post the conduct in the circuit court, I have reported to the SC of VA of those
federal rights violations and the stated created danger and harm and injuries, SC of CA stayed
silent and failed to act. Their inaction is implicit-but-affirmative encouragement.
Defendants also violated Virginia State Tort Law when they intentionally deprived my
property and liberty. Even if not intentional, which is not the case, state should provide remedies
for non-intentional, negligent, or careless acts. Because the deprivation of property was
wrongful, state tort law should provide a remedy to substitute or compensate for the loss and
damages for the value of the loss, return of the property, restitution, and other recognized legal
and equitable remedies. This court should adjudicate state claims by exercise the jurisdiction
because considering the defendants in this case and their past conducts and current conduct, the
state system is fundamentally not fair.
If there are Virginia state policies or actions or laws that are contrary to federal
constitutional rights, per the Supremacy Clause, I am entitled to recovery under §1983 because I
have been deprived of my rights secured by other constitutional provisions. Armstrong v.
Exceptional Child Center (2015); Golden State Transit Corp. v. Los Angeles (1989)).
This case in this court is not to review state court orders or judgment, but to adjudicate the
conspiracy, bribery, corruption, tort, other wrongdoings, seek relief per federal and state laws.
I.

State Case 3662 Phase 2 between My Ex-husband Bing Ran and Me
Where My Petitioned Case Has Already Concluded Has Resulted In a Decree Which
Is A Law and An Edict That Governs AdSTM to State That I Have the Control of
Management and Direction of AdSTM

State Case 3662 started in 2007 when it was a simple divorce case between me and my exhusband Bing Ran. The divorce decree incorporated a PSA that was notarized by me and Bing
5

2 2-A
Ran during our separation in December 2006. After the divorce was finalized in 2007, the case
stayed dormant for 7 years. This portion of the case is defined as Case 3662 Phase 1.
On October 15, 2008,1 and Bing Ran notarized a so-called October 15, 2008 Amendment
(“Amendment”) to amend the PSA. But we did not bring it to the court to be incorporated into
the divorce decree at that time.
In October 2014,1 filed Petition for Rule to Show Cause alleging my ex-husband Bing Ran
caused underpayment to me. This part of the litigation is defined as Case 3662 Phase 2. The
issue of if Bing Ran is AdSTM’s 51% owner was litigated in Case 3662 Phase 2 because that
potentially could have affected how much payment Bing Ran owes me for underpayment.
Defendant James C Clark wrote an opinion in December 2015, ruled on May 13, 2016 to
incorporate the Amendment into the divorce decree and based on that Amendment (which
dictates that I and Bing Ran must have equal payment from our co-owned company AdSTM,
thus the underpayment was calculated without depending on ownership percentage), Defendant
James C Clark ruled on a certain amount Bing Ran owed me as a judgment, and then in the same
order, Defendant James C. Clark ruled I breached the Amendment. May 13, 2016 order did not
rule if Bing Ran is 51% of AdSTM, and did not need to rule such.
I appealed May 13, 2016 order. Judge Alston, along with Defendant Chafin, were two of the
3 judges oversaw the appeal of that May 13, 2016 ruling and they granted me complete victory
on all of my assignments of errors, including I did not breach the Amendment.
In the 1st Amended Complaint, the divorce decree with the incorporated Amendment are
collective defined as the Decree, the Law, and the Edict that govern who is legally permitted to
control the management and directions of AdSTM: Decree states clearly that person is me, and
6

my control of management and direction of AdSTM is not dependent on how many stock share I
have in AdSTM or how many stock share Bing Ran has (there are only 2 owners).
Decree states I delegate management functions to Bing Ran but I retain the veto right to his
decisions. Decree states only Bing Ran and I can be on the Board, and only Bing Ran and I can
serve as the President, the CEO, the other important positions in AdSTM. Decree states it takes
a certain required votes to remove the management delegation function or remove any one of us
from any of those officer positions. Decree dictates: the control and management provisions and
officer and Board member position provisions are independent from ownership.
Case 3662 Phase 2 closed when Bing Ran did not appeal the Court of Appeal’s decision.
Case 3662 Phase 3 is defined as the remand after appeal plus adjudicating the amount Bing
Ran owes me in the more recent years since the May 13 2016 judgement order. Defendant
James C Clark made ruling on the amount Bing Ran owes me. Case 3662 Phase 3 is closed.
Thus, Case 3662 Phase 2 led to a Decree Which Is A Law and An Edict That Governs
AdSTM to State That I Have the Control of Management and Direction of AdSTM independent
from how much stock I own, a Decree that was established by Defendant James C. Clark and
upheld by the Court of Appeal of Virginia.
Per Decree, I am the only person who is legally permitted to control the management and
direction of AdSTM and that control is independent from how much stock I own. Per the
Decree, I make all decisions for AdSTM as well, even though I delegate management functions
to Bing Ran but I retained veto right to any of his decisions.
II.

Case 3662 Phase 4 and Case 1664

7

2 4'A
In 2018, Bing Ran casted all of his vote to vote himself off all positions in AdSTM. He also
voted to no longer take the management functions I used to delegate to him. I later also voted to
agree with his voting. Thus, in AdSTM, there was 100% vote to stop management function
delegation from me to Bing Ran and to remove Bing Ran from all of his AdSTM positions.
Upon Bing Ran’s complete departure, I became the only member of the Board per the
Decree, I became the only officer of AdSTM per the Decree, and independent of those and
independent of how much stock I have I also become the only person who is legally permitted to
perform management functions and make decisions for AdSTM per Decree. Gary Bell and Jen
Kim provided affidavits to the federal government stating Bing Ran has already completely left
from AdSTM, etc., he no longer can exercise influenced on AdSTM. I did not promote Sergey
or Gary or Jen to any other position, so they as 2 VPs and a manager, were required to report to
me directly. Bing Ran’s previous positions prescribed by the Decree legally remained vacant.
Bing Ran filed a petition against me in Case 3662 in February 2019, a case defined herein as
Case 3662 Phase 4. I was sued by my own company AdSTM in Case 1664.
The conduct or transaction or occurrence in Case 3662 Phase 4 and in Case 1664 that give
rise to the claim or cause action, as admitted and agreed to by the Employee Defendants in their
MTD, is: I am 49% owner of AdSTM, which is a fact made suddenly by Defendant James C.
Clark at the bench when he was signing a pre-typed order in February 2019 by hand writing such
sudden decision into the order to utilize it to injunct me in that same order, without holding any
evidential hearing on stock share issue. The February order in Case 3662 Phase 4 became the
foundation for the May 22,2019 order, which I appealed. Defendant James C. Clark’s May 22,
2019 Order for Case 3662 Phase 4 speaks for itself. Defendant James C. Clark also presided
over Case 1664, made rulings and stayed Case 1664 in or about 2019.
8

J2f~A
In December 2019, it was discovered in Protorae law firm office that Defendants conspired
to seize AdSTM control from me, they obtained support from 4 attorneys from Pfotorae'fBrianChandler, Scott Dinner, John Monica, and Michael Stamp) and Bing Ran, they fabricated Bing
Ran being 51% and used that fabrication to bypass the Decree, bribed Defendant James C. Clark
to go with this fabrication to name me as 49% owners and will bribe higher officials in higher
courts to also go along with this scheme that is built on conspiracy and fraud and corruption.
They have plenty money to bribe, they use the money they took from my personal property.
On appeal, prior to ruling, I informed SC of VA of those federal right violations via a
telephone hearing. SC of VA ruled, twice, Orders from SC of VA speak for themselves.
III.

The Only Court Can Review SC of VA’s Orders for Case 3663 Phase 4 Is SCOTUS

Petition for Writ in SCOTUS is to assume Official Defendants in this case had the
jurisdiction adjudicating Case 3662 Phase 4. Under that assumption, Petition for Writ to
SCOTUS seeks SCOTUS’s review of the state court orders on constitutional and statutory
violations such as: due process, ruling on ownership lacking any evidential hearing, freedom of
speech, freedom of movement, freedom of association, civil rights, constitutional issues
associated with SC of VA issuing affirm and wholly adoption of lower court ruling but only with
one small paragraph without offering any its own opinion. Petition to SCOTUS can only seek
review of the specific languages in the orders for remand relieves, it cannot seek adjudication
and remedies from corruption and conspiracy and bribery and other wrongful conducts
committed by the defendants as alleged in this case. I have filed an application for a 60-day time
extension to SCOTUS in August 2021, a copy sent to opposing counsels for that case.
IV.

This Case Is Not to Review State Court Orders and Filing this Case Was Timed to
Have Maximum Evidence Available So This Court Can Effectively Adjudicate and
9

36-A
Try by Jury to Provide Remedies and Damages Caused by the Alleged Wrongdoings
■and-toW-aeate-theJState Court Orders that Were Procured by Bribery
One of Defendants’ victory dates and one major kick back payment likely was in late June
2021 if the typical 90 days pass and if I do not submit Petition for Writ to the SCOTUS.
Although the 90 days has been extended to 150 days due to COVID, it appears that some legal
professionals and public did not know the extension. June 2021,1 filed Complaint in this case, a
prime time when maximum amount of evidence on corruption is available to be discovered.
Considering the reporting of corruption and bribery to the FBI and the fact that Michael
Stamp, who as an attorney in Protorae being one of the persons involved in the corruption and
bribery, has moved on to become a deputy director of the Department of Justice overseeing the
FBI; considering any reporting to the Virginia state is to report to Virginia Attorney General’s
office, whose lawyers are currently defending all of the Justices and Judge and courts in this
case; considering all these lead to the high likelihood that the corruption and bribery will not be
investigated by the FBI or by VA state. That makes this court be the only place where I can have
a fair chance where discovery can be done, remedies for the harms and injuries of those wrongful
conducts can be provided, discovered information can be used to take actions on the defendants
in other proceedings to prevent other persons like me to be victimized by the same defendants.
Currently, Official Defendants are already very concerned about discovery. After I merely
filed a motion to seek the court provide a scheduling order, in response to oppose that in
document #63, Official Defendants demanded the court prohibit any discovery. Defendants do
not want to answer the allegations in 1 AC because if they deny those allegations, they commit
perjury, if they admit those allegations, they admit criminally wrongdoing. So, all Defendants
filed Motion to Dismiss (see Doc #40,41,43,44) insisting this case be dismissed with prejudice
so that their corruption and bribery can be forever concealed.
10

2?'A
This case is not reviewing state orders. Dismissing this case means this court is ignoring the
corruption and other wrongdoings that have caused harms andTnjuryns-tuming-awayJiom.
providing legal remedies to a 1st Amended Complaint that is adequality pled, is leaving the
victim here continue suffer, and is leaving the door open for other people to be victimized in the
state courts, failing the role to bring justice to protect the public and private citizens.
For these above reasons alone, MTD must be denied.
V.

All of My Claims Are Sufficiently Stated In the 1st Amended Counterclaim

Defendants attempts to dismiss all claims in 1 AC by Rule 12(b)(6). Federal Rule of Civil
Procedure (“Fed. R. Civ. P.”) 8(a)(2) states: a complaint should contain “a short and plain
statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(d)(1)
further states: “[ejach allegation must be simple, concise, and direct.” Contrary to MTD’s
claims, my 1st Amended Complaint contains more than what is required by Rule 8(a), it included
the required alleged facts giving to plausible entitlement of relief. See 1 AC.
As seen in the allegation section and claim and cause of action section in 1 AC, adequate facts
and elements for cause of action have been adequately pled giving rise to plausible entitlement to
relief. Here, my 1st Amended Complaint has clearly identified Defendant’s actions and how
those actions are wrongful, it has more than sufficient statements of the claims. Those
statements are Clearly stated, not unintelligible, not confusing, and they meet the “short and
plain” Fed. R. Civ. P. requirements to put Defendants on fair notice of the charges against them
in a clear and unambiguous way and to show I am entitled to relief.
MTD likely is concerned about the 1st Amended “Complaint Tack of detail.’” Epos Tech.,
636 F. Supp. 2d at 63 (citations omitted). But SCOTUS stated in Swierkiewicz v. Sorema N.A.,
11

534 U.S. 506, 512 (2002) that Complaint should not be a collection of detailed facts and that a
complaint only need to “give the defendant fair notice of what the plaintiffs claim is and the
grounds upon which it rests”; accord Atchison, Topeka & Santa Fe Ry. v. Buell, 480 U.S. 557,
568 n.15 (1987) (under Federal Rule 8, claimant has “no duty to set out all of the relevant facts
in his complaint”). “Specific facts are not necessary in a Complaint; instead, the statement need
only ‘give the defendant fair notice of what the ... claim is and the grounds upon which it
rests.’” See Epos Tech., 636 F. Supp.2d 57, 63 (D.D.C. 2009) (quoting Bell Atlantic v.
Twombly, 550 U.S. 544, 555 (2007)). MTD should then be motion for more definite statement.
As clearly seen, Fed. R. Civ. P. regards complaint as a “notice pleading” and does not
demand any evidentiary facts in any complaint because disputed facts and dispose of claims are
part of the proceedings involving discovery and motions for summary judgement. Discovery and
summary judgment motions will define disputed facts and dispose of unmeritorious claims. See
Swierkiewicz, 534 U.S. at 512. Courts have found that if the information sought by the motion is
obtainable through discovery, the motion should be denied. See, e.g., Towers Tenant Ass'n v.
Towers Ltd. P'ship, 563 F. Supp. 566, 569 (D.D.C. 1983) (denying motion for a more definite
statement because details such as “dates, times, names and places” are “the central object of
discovery, and need not be pleaded”).
All claims in 1 AC meet all the above Rule and laws. Therefore, MTD should be denied.
VI. This Court Has subject matter jurisdiction because Judge Clark and the Supreme Court
Justices are Not entitled to absolute judicial immunity.
First of all, it is understandable that judge or justice in unique judicial position should be
protected from potential intimidation from parties of the cases they adjudicate. However,

12

J29-A
“the history ofjudicial immunity in the United States is fully consistent with the common-law
experience. There never has been a rule of absolute judicial immunity from prospective relief.,and there is no evidence that the absence of that immunity has had a chilling effect on judicial
independence.”
Pulliam v. Allen. 466 U.S. 522, 104 S. Ct. 1970, 80 L. Ed. 2d 565 (1984). Furthermore,
“While there is a need for restraint by federal courts called upon to enjoin actions of state judicial
officers, there is no support for a conclusion that Congress intended to limit the injunctive relief
available under § 1983 in a way that would prevent federal injunctive relief against a state judge.
Rather, Congress intended § 1983 to be an independent protection for federal rights, and there is
nothing to suggest that Congress intended to expand the common-law doctrine of judicial
immunity to insulate state judges completely from federal collateral review. Pp. 1978-1981.”
Again. Pulliam v. Allen. 466 U.S. 522, 523,104 S. Ct. 1970, 80 L. Ed. 2d 565 (1984).” Thus,
this case in this court reserved Injunctive Relief under § 1983 claim properly with such legal
support, and with:

“Judicial immunity is not a bar to prospective injunctive relief against a judicial officer, such as
petitioner, acting in her judicial capacity. Pp. 1974-1981.... that judicial immunity did not
extend to injunctive relief under § 1983”
Pulliam v. Allen. 466 U.S. 522,104 S. Ct. 1970, 80 L. Ed. 2d 565 (1984). This case in this court
also reserved attorneys fee', as supported by “Judicial immunity is no bar to award of attorney
fees under section 1988. 42 U.S.C.A. § 1988”. Pulliam v. Allen. 466 U.S. 522, 104 S. Ct. 1970,
80 L. Ed. 2d 565 (1984). This case in this court reserved Liability of damages because when
judge or justice tuck bribery cash under their robs while performing a judicial act and rule in
obligations to the briber for the briber or for the briber’s associate, the judge and justice has lost
all jurisdiction to the case in front them. They become liable for damages, “a judge is not
immune from actions, though judicial in nature, taken in the complete absence of all
jurisdiction.” Mireles v. Wavo, 502, U.S. 9,11-12 (1991). As a matter of fact, accepting bribe or
agreeing to accept bribe at judicial location or elsewhere either prior to, during or after
adjudicating cases affect all above claims: injunctive relief, fees, and liability of damages, as in
13

3b-/)
this case in this court where the seemingly normal adjudication act is no longer judicial but an
act less protected than typical official acts such as administrative, legislative, or executive act
which already are subject to damages liability because highest executive officials in states are not
protected by absolute immunity from damages liability arising from their official acts under
federal law. Forrester v. White. 484 U.S. 219,108 S. Ct. 538, 98 L. Ed. 2d 555 (1988).
Furthermore, when judge or justice, acting away from the bench, driven by greed, take actions
for the benefit of the briber in relation to the case he presides on is even less protected than all of
the above mentioned acts - this, and all aforementioned acts, not the result of grave procedural
error or malicious intent or in excess of authority, but acts driven by financial rewards taken to
willfully and knowingly violate Federal rights of another warrant all the claims in 1 AC.
Therefore, defendants are not permitted to qualified immunity, let alone absolute
immunity. Furthermore, Judge and Justices are personally liable for damages because our
system of jurisprudence rests on the assumption that all individuals, whatever their position in
government, are subject to federal law. Butz v. Economou. 438 U.S. 478, 98 S. Ct. 2894, 57 L.
Ed. 2d 895 (1978). I am_entitled to a remedy in damages from federal and state law violations.
VII.The Rooker-Feldman doctrine Does Not Apply to This Case in This Court
Whether ROOKER-FELDMAN DOCTRINE is applicable can only be considered if the state
case has concluded prior to the commencement of the district case. Because Case 1664 has been
stayed and has not concluded yet, ROOKER-FELDMAN DOCTRINE is irrelevant here in
respect to Case 1664. Thus, claims here should proceed relative to Case 1664 without the
concern of ROOKER-FELDMAN DOCTRINE. Even if Case 1664 concluded, but it is not, for
the same reasons explained for Case 3662 Phase 4 below, this doctrine does not apply here.

14

8'~A
A tangential but related aspect of the non-concluded Case 1664 is, I did not have any ability
to appeal any part of the proceeding in the state court or there is nothing to be appealed from or
to review “Rooker-Feldman doctrine did not deprive federal district court ofjurisdiction over
voters' action

voters were not in a position to seek review of the state court's judgment.

Lance v. Dennis. 546 U.S. 459,126 S. Ct. 1198,163 L. Ed. 2d 1059 (2006)
Even for cases that have concluded in the state court, Rooker-Feldman doctrine has narrow
scope (Hulsey v. Cisa, 947 F.3d 246,250 (4th Cir. 2020)) resulting:
“the Supreme Court has repeatedly emphasized that the Rooker-Feldman doctrine is “confined to
cases of the kind from which the doctrine acquired its name: cases brought by state-court losers
complaining of injuries caused by state-court judgments rendered before the district court
proceedings commenced and inviting district court review and rejection of those
judgments.” Exxon, 544 U.S. at 284, 125 S.Ct. 1517; see Lance v. Dennis, 546 U.S. 459, 460,
464, 126 S.Ct. 1198, 163 L.Ed.2d 1059 (2006) (per curiam); Skinner v. Switzer, 562 U.S. 521,
532,131 S.Ct. 1289,179 L.Ed.2d 233 (2011). In other words, the doctrine simply precludes
federal district courts from exercising what would be, in substance, appellate jurisdiction over
final state-court judgments. See Thana v. Bd. of License Comm’rs, 827 F.3d 314, 319 (4th Cir.
2016) (“The doctrine goes no further than necessary to effectuate Congress’ allocation of subject
matter jurisdiction between the district courts and the Supreme Court.”).”
Hulsey v. Cisa, 947 F.3d 246, 250 (4th Cir. 2020). Considering Rooker sued the court citing
state court judgement violated constitutional right, and considering Feldman sued the court citing
the state court order violated Fedearl law, those 2 scenarios are similar or identical to the Section
above where I will be petitioning to SCOTUS citing the specific languages in the state court
orders violated constitutional rights. In contrast to the petition action to the SCOTUS, in this
case in this court: I am Not seeking this court to take any appeal of any unfavorable state-court
decision (as stated clearly earlier, appeal of those decisions is to SCOTUS). Because of this
reason, in the allegations I made and the relief I sought in 1AC, I did not even include state court
judgements, to ensure this court has none of those decisions to review.
15

32-A
Contrary to MTD, here in this case in this court, I am not complaining injuries arising from
the state court decision, I am seeking remedies for defendants’ act of civil conspiracy, business
conspiracy, bribery of state officials into corruption, § 1983 claims based on violations of federal
laws. Seeking this court to vacate the state court orders, judgement, rulings, opinions and
rationales is not to seek such based on any review of state court’s judgement, but based on state
courts was completely out of the jurisdiction when they decided on the case because prior to,
during, and after that decision money transfer and money promised and demanded have already
be made which obligated the judge and justices to use their official position conduct personal
illegitimate deeds. Therefore, § 1983 claim in this case here is to seek remedies and recover
damages not from state judgement but from defendants’ conduct of bribery and corruptive illegal
practice and other wrongdoings. Because when state officials engaged in bribery, they no longer
have any jurisdiction adjudicating those state cases, therefore their adjudication and ruling on
those state cases must be nulled and voided in their entirety to begin with thus there is no need to
force this court into any review of those state court judgment. My claims are not bared by
Rooker-Feldman doctrine ... “did not bar former employee's civil rights suit against employer,
.. ..where did not claim that state court decision itself caused him injury, but rather alleged that
employer discriminated against him in violation of federal and state law.” Davani v. Virginia
Dep't of Transn.. 434 F.3d 712 (4th Cir. 2006)
Also, Rooker-Feldman does not apply because I am not complaining about injuries caused by
state-court judgments rendered before this court’s proceedings commenced, I am not inviting this
court to review those judgments, and I am not asking this court to reject those judgments based
on any review of those judgements that I did not even request this court to do,

16

53 -h

“The Rooker-Feldman doctrine was not applicable as a bar” when “action did not ask district
was
challenging action of state administrative agency.” U.S. Const. Amend.”
1; 28 U.S.C.A. § 1257(a); 42 U.S.C.A. § 1983; Md. Ann. Code art. 2B § 16-101. Thanav. Bd.
of License Commissioners for Charles Ctv.. Maryland. 827 F.3d 314 (4th Cir. 2016) and
“This case does not fall within the Rooker-Feldman doctrine’s narrow scope, for multiple
independent reasons. First and foremost, Hulsey is not complaining of an injury caused by a
state-court judgment. See Exxon, 544 U.S. at 284, 125 S.Ct. 1517. In the federal complaint,
Hulsey sought damages, disgorgement, and injunctive relief against the Limehouses and their co­
defendants for alleged RICO violations, fraud, and abuse of process, among other allegations.
Hulsey does not “seek[ ] redress for an injury caused by the state-court decision itself," Davani,
434 F.3d at 718 (emphasis added), but rather for injuries caused by the defendants’ allegedly
fraudulent conduct in prosecuting the defamation suits against him in state court.”
Hulsey v. Cisa. 947 F.3d 246, 250 (4th Cir. 2020). And, even if state court’s ruling are the
symptoms of bribery and other wrongful conducts, that does not make state court’s ruling the
cause of my injury in this case in this court,

“Even if the denial of discovery in the default proceedings may have aided the defendants’
alleged fraudulent concealment of evidence, that does not make the state court’s discovery ruling
the cause of Hulsey’s injury”
Hulsey v. Cisa. 947 F.3d 246, 250 (4th Cir. 2020). My injuries may be ratified, acquiesced or
left unpunished by state court decision without being produced by the state court judgement as in
“A plaintiffs injury at the hands of a third party may be “ratified, acquiesced in, or left
unpunished by” a state-court decision without being “produced by” the state-court
judgment. Hoblock v. Albany Cty. Bd. ofElections, 422 F.3d 77, 88 (2d Cir. 2005). Such is the
case here.”
Hulsey v. Cisa. 947 F.3d 246,250 (4th Cir. 2020). 1AC showed: my injuries were caused by the
defendants’ corruption and fraud and other wrongdoings thus defendants’ alleged use of the
courts as a tool to defraud does not make the state court’s ruling the cause of my injury,

17

34-'A

“Hulsey’s injuries were caused by the defendants’ fraud, which was merely enabled by the state
UDurt^s-diseoverv-fuling^Hie-defendantsLalleged use of the courts as a tool to defraud does not
make the state court’s ruling the cause of Hulsey’s injury.”
Hulsey v. Cisa. 947 F.3d 246,251 (4th Cir. 2020). Summarily,
“Nor does Hulsey’s federal lawsuit “invit[e] district court review and rejection” of a state-court
judgment, as would typify an appeal. Exxon, 544 U.S. at 284,125 S.Ct. 1517. This criterion is
not satisfied by mere overlap between state-court litigation and the plaintiffs claim; the federal
action must be filed “specifically to review th[e] state court judgment.” Thana, 827 F.3d at 320.”
Hulsey v. Cisa. 947 F.3d 246,251 (4th Cir. 2020)
Here, there is no overlap.

VI.

The Court has subject matter jurisdiction because Commonwealth Defendants Do Not
have sovereign immunity

The Ex parte Young exception to sovereign immunity permits this case in this court because
this case seeks federal court commands a state official to refrain from violating federal law,
“The Ex parte Young exception to a State's sovereign immunity rests on the premise that when a
federal court commands a state official to do nothing more than refrain from violating federal
law, he is not the State for sovereign-immunity purposes. U.S.C.A. Const.Amend. 11.”
Virginia Off, for Prot. & Advoc. v. Stewart. 563 U.S. 247, 131 S. Ct. 1632,179 L. Ed. 2d 675
(2011). In addition, because Defendant James C. Clark left the door open for himself to correct
his May 22, 2019 ruling by stating, twice, “until further order from this court” making this order
a living and “ongoing injunction” in such a way so that there will be a day such like this when he
can correct this order through “prospective relief’: he refrained me and Did say: one day I will
come and let you be free. Therefore, for Case 3662 Phase 4, there is a future activity that this
court can encourage Defendant James C. Clark to do: let that “further order” arrive. For Case
1664, the situation is much clearer: Defendant James C. Clark presided over the case and stayed
the case thus nothing is final there, preventing defendants and injuncting defendants to cure in

18

3»-A

that case is 100% feasible because that case not only has a similar ruling as in May 22, 2019
order as described above, there are also definite “future conduct” by the defendant to violateihe
Constitution. Therefore, both Case 1664 and Case 3662 Phase 4 contain elements “engaging
future conduct” and “ongoing violation” as in:
“In determining whether the doctrine of Ex parte Young avoids an Eleventh Amendment bar to
suit, a court need only conduct a straightforward inquiry into whether the complaint alleges an
ongoing violation of federal law and seeks relief properly characterized as prospective. U.S.C.A.
Const. Amend. 11.”
Virginia Off, for Prot. & Advoc. v. Stewart, 563 U.S. 247,131 S. Ct. 1632,179 L. Ed. 2d 675
(2011). Such allegation of an “ongoing violation” of law, the made-ready “prospective relief’,
and “future conduct” are contained in 1 AC. Case 1664 is stayed and will command future
violation of the Constitution is certain. Defendant James C. Clark set himself up to provide the
prospective relief:
“Secretary of North Carolina Department of Health and Human Services (HHS) was properly
named as defendant, in his official capacity, in Medicaid-eligible children's § 1983 action,
asserting claims for prospective relief from which Secretary was not protected by Eleventh
Amendment immunity, under Ex parte Young doctrine, based on HHS's allegedly ongoing
violation of Due Process Clause and Medicaid Act, since Secretary was person responsible for
assuring that HHS's decisions complied with federal law. U.S.C.A. Const.Amends. 11,14;
Medicaid Act, §§ 1902(a)(3, 17), 1905(r)(5), 42 U.S.C.A. §§ 1396a(a)(3, 17), 1396d(r)(5); 42
U.S.C.A. § 1983 ”
D.T.M. ex rel. McCartney v. Cansler, 382 F. App'x 334 (4th Cir. 2010). Therefore, this court has
the jurisdiction and the power to grant prospective injunctive relief and injunctive relief:
“Federal courts may grant prospective injunctive relief against state officials to prevent ongoing
violations of federal law.” CSX Transp.. Inc, v. Bd. of Pub. Works of State of W.Va.. 138 F.3d
537 (4th Cir. 1998). Furthermore, state officers acting in their official capacity are not entitled to
Eleventh Amendment protection:

19

ies-and education
officials with respect to assertion
“Claims of plaintiffs, against stare, slaUrageacies
— --------------that use of national teacher examinations for certification and pay purposeS vioiated-equal-------employment opportunities provisions of Civil Rights Act wem
.
Amendment. Civil Rights Act of 1964, § 701 et seq. ns amended 42 U.S.C.A. § 2000e et seq.,
U.S.C.A.Const. Amend. 11.”
Unitedst^v SbdeofS.C..445F.Snpp. 1094(D.S.C. 1977),^fdsubnom.NatlSte
A...... SQ.„h Carolina. 434U.S. 1026,98 S. Ct. 756,54 L. Ed. 2d 775 (1978). Also, there are
plausible causes that Judge and Justices acted in their individual capacity for actions tncludmg
hut not limited to taking bribes, giving out ruling to favor the bribers and bribers' associate while
there is complete lacking ofjurisdiction. Finally, as clearly shown in the 1 AC, defendant James
C. Clark accepted bribes and in return provided rulings to benefit the bribers and the bribers’
associates, and in that process, he and the court violated by federal rights, leading to Section
1983 claims and other claims. Therefore, Federal issues are present here, Thus, Ex parte Young
exception applies without a problem. Because certain conducts by the defendants were earned
out not in their official capacity, they are also personally liable in this case.

VII.

1 AC Stated a Claim — see above sections.

Conclusion (Note: I need to refine all pages above when I feel more recovered)
For the reasons set forth above, Plaintiff Alice Guan respectfully request this court to deny
defendants’ motion to dismiss plaintiff’s 1st Amended Complaint.
Filed in person atthe court on August 20,2021.

Respectfully Yours,

20

37-?)
Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
Reston, VA 20190
617-304-9279
407-402-8178
AiiceGuan2016@gmaii.com
AUceGuan2021@gmail.com

CERTIFICATE OF SERVICE

Thereby certify that on August 20,2021, a copy of the foregoing and the attachments
have been mailed and emailed to all counsels to.
Counsel for GARY BELL, SERGEY KATSENELENBOGEN AND JEN KIM, James B. Kinsel,
PROTORAE LAW PLLC 1921 Gallows Road, Ninth Floor Tysons, Virginia 22182 Tel.: (703)
749-8507 Fax: (703) 942-6758 at: ikinsel@nrotoraelaw.com
Counsel for the Circuit Court of the City of Alexandria and James C. Clark, Calvin Cameron
Brown, Office of the Attorney General, 202 North 9th Street Richmond, Virginia 23219
Telephone: (804) 786-4933 (this phone number gives out a different number and does not
identify attorney Brown as the recipient) at Email at: cbrown@oag.state.va.us

i/

Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
21

3S-A
Reston, VA 20190
617-304-9279
*07=402=8^8------- ---------AliceGuan2016@gmail.com
AliceGuan2021 @gmail.com

22

37-/4
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

Alice Guan

)

Plaintiff,

)

v.

) Civil Case No. l:21-CV-752-RDA-TCB

Gary Bell, et al.

)

Defendants.

)

Proposed RESPONSE IN OPPOSITION TO DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S (“EMPLOYEE DEFENDANTS”) MOTION
TO DISMISS (“MTD”) PLAINTIFF’S 1ST AMENDED COMPLAINT (“1AC”)
Plaintiff, Alice Guan (I, me, my), hereby submits aforementioned response in opposition, and
in support of such, I respectfully state the following in which, I have employed the same
terminologies as defined in 1 AC:
In the attached Exhibit A herein, I have identified by underlining all facts and content stated
by the Employee Defendants with which I disagree. Exhibit B attached herein is my Affidavit
that set forth my version of the facts (most of which is already contained in 1 AC) which are
utilized here in this writing.
Although MTD raised new facts, referenced exhibits, or made certain statements by
Employee Defendants’ counsels, for the purposes of deciding a motion to dismiss, the District
Court may not consider exhibits offered by the movants as attachment when the contents of the
exhibits are in dispute. Marshall v. Marshall, No. 3:20CV442 (DJN), 2021 WL 785090 (E.D.
Va. Mar. 1, 2021); District court would not consider alleged facts that went beyond scope of
those pled in the 1AC to dismiss the 1 AC, as in: District court would not consider alleged facts
that went beyond scope of those pled in complaint or first amended complaint in adjudicating

1

alleged infringers' motion to dismiss trademark infringement claims. Fed.RulesXjv.Pm.c.ftule12(b)(6), 28 U.S.C.A. Buffalo Wings Factory. Inc, v. Mohd. 622 F. Supp. 2d 325 (E.D. Va.
2007); Statements by counsel that raise new facts constitute matters beyond the pleadings and
cannot be considered on a motion to dismiss for failure to state a claim. Fed. R. Civ. P. 12(b)(6).
Marshall v. Marshall. No. 3:20CV442 (DJN), 2021 WL 785090 (E.D. Va. Mar. 1, 2021).
It is important to note that MTD has two major errors: it stated that AdSTM corporation
control is determined by stock ownership, it also stated that this Federal case is to litigate that
ownership. Both statements are incorrect. According to records and 1 AC and this response,
control of AdSTM is determined by the Decree, specifically the Amendment in the Decree, and
that control is independent from ownership; here in federal court, I am litigating defendants’
wrongful conduct of civil conspiracy, business conspiracy, abuse of process, bribery, corruption,
Section 1983 claims, etc., among others, but not ownership. Therefore, any of MTD’s arguments
based on those 2 errors fail.
I.

State Case 3662 Phase 2 between My Ex-husband Bing Ran and Me
Where My Petitioned Case Has Already Concluded Has Resulted In a Decree Which
Is A Law and An Edict That Governs AdSTM to State That I Have the Control of
Management and Direction of AdSTM

State Case 3662 started in 2007 when it was a simple divorce case between me and my exhusband Bing Ran. The divorce decree incorporated a PSA that was notarized by me and Bing
Ran during our separation in December 2006. After the divorce was finalized in 2007, the case
stayed dormant for 7 years. This portion of the case is defined as Case 3662 Phase 1.
On October 15, 2008,1 and Bing Ran notarized a so-called October 15, 2008 Amendment
(“Amendment”) to amend the PSA. But we did not bring it to the court to be incorporated into
the divorce decree at that time.

2

4i-A

In October 2014,1 filed Petition for Rule to Show Cause alleging mv ex-husband BingJ^an
caused underpayment to me. This part of the litigation is defined as Case 3662 Phase 2. The
issue of if Bing Ran is AdSTM’s 51% owner was litigated in Case 3662 Phase 2 because that
potentially could have affected how much payment Bing Ran owes me for underpayment.
Defendant James C Clark wrote an opinion in December 2015, ruled on May 13, 2016 to
incorporate the Amendment into the divorce decree and based on that Amendment (which
dictates that I and Bing Ran must have equal payment from our co-owned company AdSTM,
thus the underpayment was calculated without depending on ownership percentage), Defendant
James C Clark ruled on a certain amount Bing Ran owed me as a judgment, and then in the same
order, Defendant James C. Clark ruled I breached the Amendment. May 13, 2016 order did not
rule if Bing Ran is 51% of AdSTM, and did not need to rule such.
I appealed May 13, 2016 order. Judge Alston, along with Defendant Chafin, were two of the
3 judges oversaw the appeal of that May 13,2016 ruling and they granted me complete victory
on all of my assignments of errors, including I did not breach the Amendment.
In the 1st Amended Complaint, the divorce decree with the incorporated Amendment are
collective defined as the Decree, the Law, and the Edict that govern who is legally permitted to
control the management and directions of AdSTM: Decree states clearly that person is me, and
my control of management and direction of AdSTM is not dependent on how many stock share I
have in AdSTM or how many stock share Bing Ran has (there are only 2 owners).
Decree states I delegate management functions to Bing Ran but I retain the veto right to his
decisions. Decree states only Bing Ran and I can be on the Board, and only Bing Ran and I can
serve as the President, the CEO, the other important positions in AdSTM. Decree states it takes

3

42-A

a certain required votes to remove the management delegation function or remove_any-Qne-of-us
from any of those officer positions. Decree dictates: the control and management provisions and
officer and Board member position provisions are independent from ownership.
Case 3662 Phase 2 closed when Bing Ran did not appeal the Court of Appeal’s decision.
Case 3662 Phase 3 is defined as the remand after appeal plus adjudicating the amount Bing
Ran owes me in the more recent years since the May 13 2016 judgement order. Defendant
James C Clark made ruling on the amount Bing Ran owes me. Case 3662 Phase 3 is closed.
Thus, Case 3662 Phase 2 led to a Decree Which Is A Law and An Edict That Governs
AdSTM to State That I Have the Control of Management and Direction of AdSTM independent
from how much stock I own, a Decree that was established by Defendant James C. Clark and
upheld by the Court of Appeal of Virginia.
Per Decree, I am the only person who is legally permitted to control the management and
direction of AdSTM and that control is independent from how much stock I own. Per the
Decree, I make all decisions for AdSTM as well, even though I delegate management functions
to Bing Ran but I retained veto right to any of his decisions.
II.

Sergey and Gary and Jen

Sergey was hired when AdSTM won a new NRC nuclear contract. Gary was hired when
AdSTM won a new PMMAC DOD defense contract. Jen Kim was hired when a person Esther
in accounting left. Later, with my approval, Sergey was promoted to become the Vice President
overseeing only the nuclear work; Gary was promoted to become the Vice President overseeing
only the PMMAC DOD work; Jen was promoted to be the accounting manager to ensure books

4

43'A
and records are accurate and complete and invoices are sent out and payment are received, and
employees and bills are paid on time.
Sergey and Gary and Jen are the typical Virginia at-will employees in AdSTM, free to be
employed and free to leave the employment at will. They are required to perform the
specifically prescribed and limited duties and responsibilities in the nuclear, defense, and
accounting areas, respectively, and to comply with all AdSTM rules and laws and code.
Sergey and Gary and Jen were not authorized to interfere with any higher management
topic or ownership topic, and they were never permitted to legally represent AdSTM’s or Bing
Ran’s or my interests. They each know about the Decree and have seen the Amendment.
III.

Case 3662 Phase 4 and Case 1664

In 2018, Bing Ran casted all of his vote to vote himself off all positions in AdSTM. He also
voted to no longer take the management functions I used to delegate to him. I later also voted to
agree with his voting. Thus, in AdSTM, there was 100% vote to stop management function
delegation from me to Bing Ran and to remove Bing Ran from all of his AdSTM positions.
Upon Bing Ran’s complete departure, I became the only member of the Board per the
Decree, I became the only officer of AdSTM per the Decree, and independent of those and
independent of how much stock I have I also become the only person who is legally permitted to
perform management functions and make decisions for AdSTM per Decree. Gary Bell and Jen
Kim provided affidavits to the federal government stating Bing Ran has already completely left
from AdSTM, etc., he no longer can exercise influenced on AdSTM. I did not promote Sergey
or Gary or Jen to any other position, so they as 2 VPs and a manager, were required to report to
me directly. Bing Ran’s previous positions prescribed by the Decree legally remained vacant.
5

A4-A

To farther ensure Employee Defendant are fully aware of the Decree, T informed-them.
verbally and/or by writing in late 2018 and in January 2019 that the Amendment is incorporated
into the divorce decree and is the law governing the management in AdSTM, I am the only board
member, the only officer, and I am legally the only one permitted to control the management and
directions of AdSTM and perform all management functions.
Sergey and Gary and Jen started to ignore me then turned totally against me in mid-January
2018. Soon after that, Bing Ran filed a petition against me in Case 3662 in February 2019, a
case defined herein as Case 3662 Phase 4. I was sued by my own company AdSTM in Case
1664. Sergey and Gary and Jen are not parties in Case 1664 or in Case 3662 Phase 4.
The conduct or transaction or occurrence in Case 3662 Phase 4 and in Case 1664 that give
rise to the claim or cause action, as admitted and agreed to by the Employee Defendants in their
MTD, is: I am 49% owner of AdSTM, which is a fact made suddenly by Defendant James C.
Clark at the bench when he was signing a pre-typed order in February 2019 by hand writing such
sudden decision into the order to utilize it to injunct me in that same order, without holding any
evidential hearing on stock share issue. The February order in Case 3662 Phase 4 became the
foundation for the May 22, 2019 order, which I appealed. Defendant James C. Clark’s May 22,
2019 Order for Case 3662 Phase 4 speaks for itself. Defendant James C. Clark also presided
over Case 1664, made rulings and stayed Case 1664 in or about 2019.
In December 2019, it was discovered in Protorae law firm office that Employee Defendants
conspired to seize AdSTM control from me, they obtained support from 4 attorneys from
Protorae (Brian Chandler, Scott Dinner, John Monica, and Michael Stamp) and Bing Ran, they
fabricated Bing Ran being 51% and used that fabrication to bypass the Decree, bribed Defendant
James C. Clark to go with this fabrication to name me as 49% owners and will bribe higher
6

■4-S-A
officials in higher courts to also go along with this scheme thatisTuiltJ3rLConspiracy_andifaud
and comiption. They have plenty money to bribe, they use the money they took from my
personal property.
On appeal, SC of VA ruled, twice, Orders from SC of VA speak for themselves.
IV.

The Only Court Can Review SC of VA’s Orders for Case 3663 Phase 4 Is SCOTUS

Petition for Writ in SCOTUS is to assume Official Defendants in this case had the
jurisdiction adjudicating Case 3662 Phase 4. Under that assumption, Petition for Writ to
SCOTUS seeks SCOTUS’s review of the state court orders on constitutional and statutory
violations such as: due process, ruling on ownership lacking any evidential hearing, freedom of
speech, freedom of movement, freedom of association, civil rights, constitutional issues
associated with SC of VA issuing affirm and wholly adoption of lower court ruling but only with
one small paragraph without offering any its own opinion. Petition to SCOTUS can only seek
review of the specific languages in the orders for remand relieves, it cannot seek adjudication
and remedies from corruption and conspiracy and bribery and other wrongful conducts
committed by the defendants as alleged in this case. I have filed an application for a 60-day time
extension to SCOTUS in August 2021, a copy sent to opposing counsels for that case.
V.

This Case Is Not to Review State Court Orders and Filing this Case Was Timed to
Have Maximum Evidence Available So This Court Can Effectively Adjudicate and
Try by Jury to Provide Remedies and Damages Caused by the Alleged Wrongdoings
and to Vacate the State Court Orders that Were Procured by Bribery

One of Employee Defendants’ victory dates and one major kick back payment likely was in
late June 2021 if the typical 90 days pass and if I do not submit Petition for Writ to the SCOTUS.
Although the 90 days has been extended to 150 days due to COVID, it appears that some legal

7

M-A

professionals and public did not know the extension. June 2021.1 filed JComplaintin_this-case.-a
prime time when maximum amount of evidence on corruption is available to be discovered.
Considering the reporting of corruption and bribery to the FBI and the fact that Michael
Stamp, who as an attorney in Protorae being one of the persons involved in the corruption and
bribery, has moved on to become a deputy director of the Department of Justice overseeing the
FBI; considering any reporting to the Virginia state is to report to Virginia Attorney General’s
office, whose lawyers are currently defending all of the Justices and Judge and courts in this
case; considering all these lead to the high likelihood that the corruption and bribery will not be
investigated by the FBI or by VA state. That makes this court be the only place where I can have
a fair chance where discovery can be done, remedies for the harms and injuries of those wrongful
conducts can be provided, discovered information can be used to take actions on the defendants
in other proceedings to prevent other persons like me to be victimized by the same defendants.
Currently, Official Defendants are already very concerned about discovery. After I merely
filed a motion to seek the court provide a scheduling order, in response to oppose that in
document #63, Official Defendants demanded the court prohibit any discovery. Defendants do
not want to answer the allegations in 1 AC because if they deny those allegations, they commit
perjury, if they admit those allegations, they admit criminally wrongdoing. So, all Defendants
filed Motion to Dismiss (see Doc #40, 41,43, 44) insisting this case be dismissed with prejudice
so that their corruption and bribery can be forever concealed.
This case is not reviewing state orders. Dismissing this case means this court is ignoring the
corruption and other wrongdoings that have caused harms and injury, is turning away from
providing legal remedies to a 1st Amended Complaint that is adequality pled, is leaving the

8

A'7‘~A

victim here continue suffer, and is leaving the door open for other people_tO-bejyictimizedJn-the
state courts, failing the role to bring justice to protect the public and private citizens.
For these above reasons alone, MTD must be denied.
VI.

All of My Claims Are Sufficiently Stated In the 1st Amended Counterclaim

Employee Defendants attempts to dismiss all claims in 1AC by Rule 12(b)(6). Federal Rule
of Civil Procedure (“Fed. R. Civ. P.”) 8(a)(2) states: a complaint should contain “a short and
plain statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(d)(1)
further states: “[ejach allegation must be simple, concise, and direct.” Contrary to MTD’s
claims, my 1st Amended Complaint contains more than what is required by Rule 8(a), it included
the required alleged facts giving to plausible entitlement of relief. See 1 AC.
As seen in the allegation section and claim and cause of action section in 1 AC, adequate facts
and elements for cause of action have been adequately pled giving rise to plausible entitlement to
relief. Here, my 1st Amended Complaint has clearly identified Employee Defendant’s actions
and how those actions are wrongful, it has more than sufficient statements of the claims. Those
statements are Clearly stated, not unintelligible, not confusing, and they meet the “short and
plain” Fed. R. Civ. P. requirements to put Employee Defendants on fair notice of the charges
against them in a clear and unambiguous way and to show I am entitled to relief.
MTD likely is concerned about the 1st Amended “Complaint Tack of detail.’” Epos Tech.,
636 F. Supp. 2d at 63 (citations omitted). But SCOTUS stated in Swierkiewicz v. SoremaN.A.,
534 U.S. 506, 512 (2002) that Complaint should not be a collection of detailed facts and that a
complaint only need to “give the defendant fair notice of what the plaintiff’s claim is and the
grounds upon which it rests”; accord Atchison, Topeka & Santa Fe Ry. v. Buell, 480 U.S. 557,
9

AS—A
568 n.15 (1987) (under Federal Rule 8, claimant has “no duty to set out all of the relevant facts
in his complaint”). “Specific facts are not necessary in a Complaint; instead, the statement need
only ‘give the defendant fair notice of what the ... claim is and the grounds upon which it
rests.’” See Epos Tech., 636 F. Supp.2d 57, 63 (D.D.C. 2009) (quoting Bell Atlantic v.
Twombly, 550 U.S. 544, 555 (2007)). MTD should then be motion for more definite statement.
As clearly seen, Fed. R. Civ. P. regards complaint as a “notice pleading” and does not
demand any evidentiary facts in any complaint because disputed facts and dispose of claims are
part of the proceedings involving discovery and motions for summary judgement. Discovery and
summary judgment motions will define disputed facts and dispose of unmeritorious claims. See
Swierkiewicz, 534 U.S. at 512. Courts have found that if the information sought by the motion is
obtainable through discovery, the motion should be denied. See, e.g., Towers Tenant Ass'n v.
Towers Ltd. P'ship, 563 F. Supp. 566, 569 (D.D.C. 1983) (denying motion for a more definite
statement because details such as “dates, times, names and places” are “the central object of
discovery, and need not be pleaded”).
All claims in 1 AC meet all the above Rule and laws. Therefore, MTD should be denied.
VII. PLAINTIFF’S CLAIMS ARE NOT BARRED BY CLAIM AND ISSUE PRECLUSION
Rule 1:6, the current VA governing law of claim preclusion, requires “.. .final judgment, ...
the same opposing party, same conduct, transaction or occurrence” Marshall v. Marshall. No.
3:20CV442 (DJN), 2021 WL 785090, at *21 (E.D. Va. Mar. 1, 2021).
Among Case 3662 Phase 4 and Case 1664, Case 1664 has not reached final judgement.
Therefore, CLAIM AND ISSUE PRECLUSION is irrelevant to this federal case relative to Case
1664.

10

Jfi-A
As MTD stated, state cases used AdSTM stockownership-as-the_occun:ence-OE-transactions-Qrconduct that give rise to the claims or cause of actions there in the state cases.
Here in this case in Federal court, stock ownership is not litigated. To the extent if any
discussion of ownership is mentioned it is only mentioned to describe to this court that, 1). as
Employee Defendants have already stated in the MTD, ownership was the occurrence or
transaction or conduct that give rise to the claim or cause of actions in the state court cases; 2).
Ownership was the tool defendants used in their conspiracy, bribery, corruption, wrongdoings.
Here in this case in this court, I am litigating fraud, tort, abuse of process, civil conspiracy,
business conspiracy, bribery and corruption of state officials that lead them to break the law, the
decree, and edict. Therefore, the occurrence or transactions or conduct in this case is completely
different from that of the state cases. And Furthermore:
Employee Defendants are not parties to Case 3662 Phase 4 and Case 1664.
One of the fundamental prerequisites to the application of the doctrine of res judicata is
that there must be an identity of parties between the present suit and the prior litigation asserted
as a bar; a party to the present suit, to be barred by the doctrine, must have been a party to the
prior litigation, or represented by another so identified in interest with him that he represents the
same legal right. Sup.Ct.Rules, Rule 1:6. Raley v. Haider, 286 Va. 164, 747 S.E.2d 812 (2013).
The touchstone of privity for purposes of res judicata is that a party's interest is so identical with
another that representation by one party is representation of the other's legal right. Raley v.
Haider. 286 Va. 164, 747 S.E.2d 812 (2013)
MTD categorized Employee Defendants as privities of Bing Ran and AdSTM in ownership
issue. Because I am not litigating ownership in this federal case, MTD’s privities statement fails.
Somehow, MTD continue incorrectly states corporate control issues is determined by ownership.
11

s*-/)

Corporate control is determined by the Decree and is independent from ownership.
Nevertheless, on any AdSTM or Bing Ran issues or interests litigated in the state cases Case 362
Phase 4 or Case 1664, because Employee Defendants are not owners, cannot legally be corporate
officers or board members or management control per the Decree, they in no way can share the
same legal interest or the same legal right with Bing Ran or with AdSTM. Their only legitimate
interest is to perform their job duties within nuclear, or defense, or accounting areas and get paid
by doing that job while they are obligated to comply and abide with all AdSTM rules and laws,
with the flexibility that if they do not like any aspect of their work, including who is their
supervisor or who they need to report to, they can freely quit and seek other employment.
Besides that, between them and AdSTM, or between them and Bing Ran, also considering Bing
Ran already resigned all positions and management functions in 2018, there is absolutely no
“contractual relationship,....” or owing any kind of “.... legal duty to each other or have another
legal relationship such as co-ownership” as defined by Columbia Gas Transmission, LLC v.
DavidN. Martin Revocable Trust, 833 F.Supp.2d 552, 558 (E.D.Va. 2011). Thus, Employee
Defendants are not privities of anyone or any party in the state cases that commenced in 2019.
Therefore, contrary to MTD, my claims here in this court are not barred by claim and
issue preclusion and res judicata does not apply here.
VIII. My 1 AC IS Not BARRED BY THE ROOKER-FELDMAN DOCTRINE
Whether ROOKER-FELDMAN DOCTRINE is applicable can only be considered if the state
case has concluded prior to the commencement of the district case. Because Case 1664 has been
stayed and has not concluded yet, ROOKER-FELDMAN DOCTRINE is irrelevant here in
respect to Case 1664. Thus, claims here should proceed relative to Case 1664 without the

12

3i~A
concern of ROOKER-FELDMAN DOCTRINE. Even if Case 1664 concluded, but it is not, for
the same reasons explained for Case 3662 Phase 4 below, this doctrine does not apply here.
For Case 3662 Phase 4, a case that has already been concluded, I am not seeking to take an
appeal of an unfavorable state-court decision to this court (as stated clearly earlier, appeal of
those decisions is to SCOTUS). Because of this reason, in the allegations I made and the relief I
sought in 1 AC, I did not even include state court judgements, to ensure this court has none of
those decisions to review.
Contrary to MTD, I am not litigating ownership issues in this court. Rather, I am alleging
civil conspiracy, business conspiracy, bribery of state officials into corruption, § 1983 claims
based on corruptive conduct, among others.
§ 1983 claim in this case alleges state officials have already committed corruption by
receiving and by agreeing to receive bribes from private citizen before, during, and after those
state officials adjudicated or entered final judgement in the state cases resulting in violating my
Federal rights.
§ 1983 claim in this case here is to seek remedies and recover damages not from state
judgement but from defendants’ conduct of bribery and corruptive illegal practice and because
when state officials engaged in bribery, they no longer have any jurisdiction adjudicating those
state cases, therefore their adjudication and ruling on those state cases must be nulled and voided
in their entirety to begin with thus there is no need to force this court into any review of those
state court judgment. My claims are not bared by Rooker-Feldman doctrine ... “did not bar
former employee's civil rights suit against employer, ....where employee did not claim that state
court decision itself caused him injury, but rather alleged that employer discriminated against

13

53-A
him in violation of federal and state law.” Davani v. Virginia Dep't of Transp.. 434_E.3d J_12TAth
Cir. 2006)
Also, Rooker-Feldman does not apply because I am not complaining about injuries caused
by state-court judgments rendered before this court’s proceedings commenced, I am not inviting
this court to review those judgments, and I am not asking this court to reject those judgments
based on any review of those judgements that I did not even request this court to do,
“The Rooker-Feldman doctrine was not applicable as a bar” when “action did not ask district
court to conduct appellate review of a final judgment from state's highest court, and instead was
challenging action of state administrative agency.” U.S. Const. Amend. 1; 28 U.S.C.A. §
1257(a); 42 U.S.C.A. § 1983; Md. Ann. Code art. 2B § 16-101. Thanav. Bd. of License
Commissioners for Charles Ctv.. Maryland, 827 F.3d 314 (4th Cir. 2016)
IX. EMPLOYEE DEFENDANTS’ ACTIONS ARE SUBJECT TO A § 1983 CLAIM
MTD claims that because Employee Defendants are private citizens and have no official
state position, count against them should be dismissed. This is incorrect. As pled in 1 AC,
Employee Defendants conspired and bribed public officials and took other wrongful acts, thus
Employee Defendants’ (as Private party's) joint participation with state officials in deprivation of
constitutional right (or Federal rights) proves sufficient to hold them liable under section 1983;
private actor must have acted together with or obtained significant aid from state officials. 42
U.S.C.A. § 1983. Marshall v. Marshall. No. 3:20CV442 (DJN), 2021 WL 785090 (E.D. Va.
Mar. 1, 2021). Employee Defendants were state actors because they corruptly conspired with a
judge to issue an injunction. Ononuiu v. Virginia Hous. Dev. Auth.. 103 Va. Cir.
57, reconsideration denied. 103 Va. Cir. 57A (2019).

14

53'A

X. DIVERSITY JURISDICTION EXISTS

As 1st Amended Complaint stated, there exists several bases for this court to possess the
jurisdiction: § 1983 CLAIM, subject matter jurisdiction, diversity jurisdiction, etc. MTD
challenged diversity jurisdiction, but concealed Defendant Sergey is a Florida Permanent
resident, as stated in 1 AC and as shown in the Exhibit of 1 AC showing his recent residency
record kept by Virginia State Corporation is a Florida address.
The primary issue here is whether Defendant Sergey is a Virginia Resident. In MTD,
Employee Defendant Sergey concealed his Florida citizenship from this court. When Court has
the knowledge that Defendant Sergey is a citizen of Florida which is different from the state of
citizen of Plaintiff, court retain diversity jurisdiction as the Court concludes that: (i) Saucedo is a
Mexican citizen and not a New Mexico citizen., thus concludes that it has diversity jurisdiction
over this case. McDaniel v. Lova, 304 F.R.D. 617, 620 (D.N.M. 2015)
Employee Defendants claims on MTD page 10 that complete diversity is required in this
case if the case is to continue reside in Federal court. That is incorrect, considering the above.
Also, Article III permits federal jurisdiction:... in cases with minimum diversity, i.e., those in
which any one party is a citizen of a different state than any opposing party... U.S.C.A. Const.
Art. 3, § 2, cl. 1; 28 U.S.C.A. § 1332(a)(1). De La Rosa v. Reliable. Inc.. 113 F. Supp. 3d 1135
(D.N.M. 2015)
Therefore, based on the above and the fact that this case was originally filed in this court,
and I did not file this case in state court then requesting removing it to the federal court, there is
diversity jurisdiction.
XI. THE 1983 CLAIM HAVE MERIT AND THE COURT SHOULD EXERCISE
SUPPLEMENTAL JURISDICTION ON STATE CLAIMS
15

5^-A
My 1983 claims have merits, as stated above and in 1 AC and in Exhibit B attached
herein, and this court has jurisdiction. This court should also exercise supplemental jurisdiction
on all state claims and other Federal claims in 1 AC. Considering if state claims are adjudicated
in the state court, they sooner or later will be adjudicated by the same state officials who are the
defendants in this case and have been alleged in this case to have committed bribery and other
wrongdoings when they were adjudicating earlier state cases Case 3662 Phase 4 and Case 1664,
transferring state claims to state courts would not be fair.
As stated above, contrary to MTD, this case is not a re-litigation of state cases and is not
recalculating ownership in AdSTM. Federal actions here do not concern AdSTM ownership
issues and the issues this case concerns is different from the ownership issues contained in the
state court.

Not only issues between this case and state cases are completely different, but

parties are also not the same neither.
This court exercising jurisdiction on state claims saves judicial economy and provide
fairness to the litigants and others, and will lead to uniformity in adjudicating all claims that rest
upon same or similar conducts or occurrences pled in 1 AC (which are different from claims and
conduct and occurrences in the state cases), determining whether to exercise supplemental
jurisdiction, a district court should undergo a flexible balancing analysis in which it should
consider and weigh the values ofjudicial economy, convenience, fairness, and comity. 28
U.S.C.A. § 1367(a). Salim v. Dahlberg.. 170 F. Supp. 3d 897 (E.D. Ya. 2016). The district
court's decision to exercise supplemental jurisdiction is purely discretionary and does not
constitute a jurisdictional issue. 28 U.S.C.A. § 1367(a). Salim v. Dahlberg, 170 F. Supp. 3d 897
(E.D. Va. 2016). Thus, I respectfully request this court retain jurisdiction on all claims.

16

S*-A
XII. THE STATE LAW AND OTHER FEDERAL CLAIMS HAYE-MERTTJfflUSLXHE
COURT SHOULD EXERCISES JURISDICTION OR SUPP JURISDICTION ON ALL
a. Plaintiff Has Standing to Assert a Business Conspiracy Claim and the Claim is
Not Barred by Intracorporate Immunity
First of all, I as the owner, as the only director, as the only officer and the only person
empowered per and by the Decree to have legal authority to control the management and
direction of AdSTM absolutely have standing in this claim, business conspiracy or conspiracy
claim belongs to owner who has suffered injuries, as in Trademark owners' allegations that
former employees, while still employed by restaurant, conspired to misappropriate and copy
restaurant's trade secrets and proprietary information, lure away employees, copy business
format, and imitate and infringe trademarks, and conspired with third parties to achieve unlawful
means, were sufficient to plead conspiracy claim under Virginia Business Conspiracy Act.
West's V.C.A. §§ 18.2-499,18.2-500. Buffalo Wings Factory. Inc, v. Mohd. 622 F. Supp. 2d
325 (E.D. Va. 2007)
Secondly, the “intra-corporate immunity” doctrine, which states that conspiracy between
corporation and agents of corporation acting within scope of employment is legal impossibility,
has an exception: if an employee, officer, or agent has an independent personal stake in the
conspiracy, a conspiracy with the corporation may be found. Buffalo Wings Factory, Inc, v.
Mohd. 622 F. Supp. 2d 325 (E.D. Va. 2007). In this case, as pled, Employee Defendants have
independent personal stake in the conspiracy, and in conspiracy among themselves, therefore,
there is no intra-corporate immunity available for them.
Thirdly, this case did not plead AdSTM is conspiring with the Employee Defendants.
This case pled conspiracy and business conspiracy among 3 AdSTM employees only. This case
also pled those 3 employee Defendants acted outside of the scope of their employment. Thus,
intra-corporate immunity, which involves complaint naming corporation as defendant and
17

S&-A
alleging it conspired with its agent who is acting in the scope_o£.their-emplo-vment-dQes-not-eyeQapply in this case. Employee Defendants conspired as under Virginia statute, a “business
conspiracy” arises when two or more persons combine, associate, agree, mutually undertake or
concert together for the purpose of willfully and maliciously injuring another in his reputation,
trade, business, or profession by any means whatsoever. West's V.C.A. § 18.2-499. Harrell v.
Colonial Holdings. Inc., 923 F. Supp. 2d 813 (E.D. Va. 2013)
Furthermore, when Employee Defendants hired Protorae law firm as purported AdSTM legal
counsel, those Employee Defendants acted outside of the scope of their employment and
conspires with Protorae and its attorneys . 1 AC stated adequate factual basis that more than
satisfied Rule 8(a) and has given Defendants “fair notice of what the ... claim is and the grounds
upon which it rests.”’ See Epos Tech., 636 F. Supp.2d 57, 63 (D.D.C. 2009) (quoting Bell
Atlantic v. Twombly, 550 U.S. 544, 555 (2007)).
Therefore, Plaintiff Has Standing to Assert a Business Conspiracy Claim and the Claim is
valid, and it is Not Barred by Intracorporate Immunity.
b. I Alleged a Viable Claim for Abuse of Process (I need do refine my response)
1 AC has alleged Employee Defendant’s ulterior motives and purposes, e.g., they illegally
wanted to illegally seize the control of AdSTM from me and illegally take control of the $2.3M
of my property. They have no authority in AdSTM whatsoever to initiate any legal actions by
using AdSTM’s name or to proceed with serving me. But in order to achieve their ulterior
motives, they conspired with Protorae and its attorneys, fraudulently used the process that is not
proper as in the regular prosecution of the proceedings. After process was issued, employee
defendant continued their corruption and bribery practice to accomplish that ulterior motive: to

18

5rI-A
iejexistence o£
an ulterior purpose, and (2) an act in the use of the process not proper in
the regular prosecution of the proceedings. Montgomery v. McDaniel. 271 Va. 465, 628 S.E.2d
529 (2006), the claim is valid.
c. I Have Standing to Assert an Accounting Claim
AdSTM is operated by the Decree. Decree dictates I legally have the legal control of
AdSTM. Decree also dictates that I have access to all record in AdSTM, including those records
that were kept by employees. Therefore, I have the absolute standing to assert an accounting
claim. (I need to add more here to these claims here

•)

d. False representation claim Also Can Be Regarded as actual fraud and constructive
fraud and breach of contract and Negligence and defamation claim
1 AC contained both Federal Claims and State Claims. Some claims are claims other than
Virginia claims and clarifications can be provided. This is a valid claim because I have pled
defendant intentionally and knowingly made a false representation of a material fact with intent
to mislead resulting reliance by the party mislead, and resulting damage to the party misled.
Cars Unlimited II. Inc, v. Nat'l Motor Co.. 472 F. Supp. 2d 740 (E.D. Va. 2007).
Defendants is bound by employment contract and fiduciary duty and loyalty to abide
AdSTM rules and laws, including the Decree. Defendant violated the Decree and caused
damages. (I need to add elements to these claims here
e. Bribery Also Can Be Regarded as theft and defamation claim

19

51'A
Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
Reston,VA 20190
617-304-9279
407-402-8178
AliceGuan2016@gmail.com
AliceGuan2021@gmail.com

CERTIFICATE OF SERVICE

I hereby certify that on August 19,2021, a copy of the foregoing and the attachments
have been mailed and emailed to all counsels to:
Counsel for GARY BELL, SERGEY KATSENELENBOGEN AND JEN KIM, James B. Kinsel
PROTORAE LAW PLLC 1921 Gallows Road, Ninth Floor Tysons, Virginia 22182 Tel: (703)
749-8507 Fax: (703) 942-6758 at: jMnsel@nrotoraelaw.com
Counsel for the Circuit Court of the City of Alexandria and James C. Clark, Calvin Cameron
Brown, Office of the Attorney General, 202 North 9th Street Richmond, Virginia 23219
Telephone: (804) 786-4933 (this phone number gives out a different number and does not
identify attorney Brown as the recipient) at Email-atr >rowh(

Lg.state.va.us

Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
21

Reston, VA 20190
617-304-9279
407-402-8178
AliceGuan2016@gmail.com
AliceGuan2021 @gmail.com

22

$

m.-2o_
IN THE
SUPREME COURT OF THE UNITED STATES

ALICE GUAN (YUE GUAN),
Applicant,
v.
Bing Ran
Respondent.

Sworn Statement by Petitioner on the Content of Her Oral Argument in Front of a
3-Justice Panel of the Supreme Court of Virginia

1. I am Alice Guan.
2. I am the Petitioner in this case.
3. I have personal knowledge of the fact in this sworn statement.

4. I am a citizen of the United States and is protected by the Federal laws.
5. Before Supreme Court of Virginia made its January 11, 2021 judgment, it
scheduled me for alO-minutes Oral Argument. The following is the text of
exactly what I presented to a panel of 3 justices: the Honorable William C.
Mims, the Honorable Stephen R. McCullough, the Honorable Leroy F.
Millette:
Thank you, your honor. Good afternoon, Justices. May I please the court. My
name is Alice Guan. My case is of public importance. The lower court’s order
1

fc-A
^iolatad_theJLgLand the 14th Amendments of the Constitution. Tt. violated Title VTT
of the civil rights Act. And it treated me like a criminal in a civil case through the
permanent injunction order. It altered the contract and the divorce decree without
the consent of both parties. And it made ruling absolutely absent of any laws and
facts.
My case is associated with the management of my company AdSTM, a company I
formed in 1996 with me as the 100% stock owner for 12 years with annual revenue
about $16M sustained for several years. Then I sold 49% of the stock to my Exhusband after the divorce. The divorce decree originally contained a parental and
support agreement as well as property settlement agreement collectively called the
PSA. On the day prior to the expiration of child support, and child custody issues, I
and my ex-husband amended the PSA with a document called the October 15th,
2008 Amendment.
The lower court on May 13, 2016 incorporated the amendment into the divorce
decree, to make the decree conform to the amendment. There are three key
provisions of the Amendment, provisions 3, 4, and 5.
Provision 3 states there are only 2 shareholders in AdSTM, I and my exhusband, I own 51%.
Provision 4 states, there are only two board members in AdSTM, I and my Exhusband.

2

£2-4
And Provision number 5 states there are only two people who can manage
AdSTM, with me holding the management rights with my ex-husband receiving
management functions that is delegated by and from me, and I have the veto right
on all of my ex-husband’s decisions.
In addition, Provision 5 states, the delegation and the veto rights can not be
removed unless with 2/3 of voting stock.
The spirit of the Amendment was I and my ex-husband would manage and
operate our company through our amendment without submitting the amendment
to the court, but if he or I breach the amendment, then the amendment is null and
void, then we go back to use the PSA which is intact within the divorce decree. But
per my ex-husband’s motion which is in Appendix page 69, he motioned the court to
incorporate the amendment into the decree so the decree conform with the
amendment, The Court did, in 2016.
About 2 years after the lower court made the divorce decree conform with the
Amendment, therefore replacing the corresponding terms in the PSA regarding the
management of AdSTM, my ex-husband in 2018 resigned all of his roles and
positions. With his action, he voted to remove the delegation of the management
functions from me to him. I voted and agreed. Therefore with 100% vote, the
delegation function from me to him has been removed. From there on, I started to
assume all of the management functions in AdSTM. All of my actions have been in
conformance with the Amendment which is a court order, as part of the divorce
decree.
3

In February 2019, after my Ex-husband has abandoned his roles and
responsibilities for more than 8 months in AdSTM, he filed a motion, he filed a
petition for rule to show cause in the lower court, when he had no legal standing to
do so. He asked the court to deem my actions breaching of the amendment, he
asked the court to go back to the PSA to the terms and provisions that have already
been replaced by the amendment. The court granted everything my ex-husband
wanted, including a last minute handwritten proposed order regarding he is 51%
owner of AdSTM. The court did so without any laws and evidence.
Court’s injunction order and order in general overstepped the fundamental right
of civil liberties that I have, it created undue interference with AdSTM’s function.
The court egregiously deprived my rights of freedom of speech, freedom of
association, freedom of expression, and freedom of movement. The lower court
locked me down permanently and banned me from going to my own workplace, from
association or interaction with anyone in my company, from any form of speech and
expression in my own company, which is a significant amount of time and a
significant portion of my life. Lower court also egregiously deprived my private own
property and my ability and my rights to protect my property and my investment in
my company. Furthermore, lower court deprived my right that is guaranteed by the
amendment which is the divorce decree.
The lower court erred and rewarded the litigant who has no standing under
provisions 3, 4, 5, 12 and 13 because the litigant, my ex-husband, has abandoned all
of his roles in the company 8 months prior. Lower court erred by signing a last4

6S-A
minute proposed order giving my ex-husband 2 extra percent of the stock share
absent of law and absent of evidence. The lower court erred by bringing the
obsolete provisions from the PSA back to life after the very same lower court has
amended those provisions with the Amendment. The lower court erred by changing
the private contract or its meaning without both parties’ consent. The divorce
decree is an important part of family law, the lower court erred by changing the
divorce decree or its meaning without the consent of both parties. And most
significantly, the lower court knew the contract and the divorce decree, the lower
court read the contract in open court, and knew what they meant. But the lower
court nevertheless ruled against its plain meaning under the clear objections from
me.
There are not only Federal questions within this case, but also questions on
contract laws, family laws, judiciary duties of a court that are common to all of the
states’ procedures and laws, as well as to Federal procedures and laws. These are
all matters with public importance. Those are matters of interpretation of Justice
to all citizens in the United States. I pray the court agree to review the merit of my
case. Thank you, Justices.

Certificate
I, Alice Guan, sworn under the penalty of perjury that the above statement is
true per my best knowledge.

5

9

uBti-0 aoijy

IN THE
SUPREME COURT OF THE UNITED STATES

ALICE GUAN (YUE GUAN),
Applicant,
v.

Bing Ran
Respondent.

On Petition for Writ of Certiorari to the Supreme Court of Virginia

APPENDIX (Total 95 Pages)
Volume 3 of 3
For the

Petition for Writ of Certiorari

Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
Reston, VA 20190
617-304-9279
AliceGuan202l@gmail.com

TABLE OF CONTENTS of APPENDIX
Page
Judgment, Supreme Court of Virginia (January 11, 2021)

1-A

Order Denying Petition for Rehearing, Supreme Court
...........................................

2-A

Judgment, Alexandria Circuit Court (May 22, 2019).......

3-A

Order Alexandria Circuit Court (February 27, 2019)....... .

7-A

Contract Between Petitioner and Respondent....................

9A

Amended Order, Alexandria Circuit Court (May 13, 2016)

13A

of Virginia (March 26, 2021)

Proposed RESPONSE IN OPPOSITION TO COMMONWEALTH DEFENDANTS’
MOTION TO DISMISS (“MTD”) 1st AMENDED COMPLAINT (“1AC”), IN THE
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
VIRGINIA, Civil Case No. D21-CV-752-RDA-TCB (August 20, 2021).... 17 A
RESPONSE IN OPPOSITION TO DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S (“EMPLOYEE DEFENDANTS”)
MOTION TO DISMISS (“MTD”) PLAINTIFF’S 1ST AMENDED COMPLAINT
(“1AC”), IN THE UNITED STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF VIRGINIA, Civil Case No. U21-CV-752-RDA-TCB (August 19, 2021)
39 A

Sworn Statement by Petitioner on the Content of Her Oral Argument
in Front of a 3-Justice Panel of the Supreme Court of Virginia ..........

61-A

Petition for Rehearing En Banc............................................................... 67-A

MEMORANDUM IN SUPPORT OF DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S MOTION TO DISMISS PLAINTIFF’S
1ST AMENDED COMPLAINT, Case No. i:21-cv 00752-RDA-TCB...... 80-A

67-A
Record No. 200995
IN THE SUPREME COURT
OF
VIRGINIA

ALICE JIN-YUE GUAN
Appellant
v.
BING RAN
Appellee

Appeal of Orders
From the Circuit Court of the City of Alexandria
Circuit Court No. CL07003662
(Hon. James Clark)

PETITION FOR REHEARING EN BANC
(related SCVA order dated Jan 11, 2021) (per Rule 5:20)
Alice Guan, pro se Appellant
4250 Alafaya Trail, #212-163
Oviedo, FL 32765
T: 407-402-8178
AliceGuanRopeJumper2020@gmail.com
AliceGuan2016@, gmail.com

11654 Plaza America Drive
#286
Reston, VA 20190

68-4

Imagine you are gagged with duct tape and bound with metal chains, your
personal property in millions of dollars is stolen, you are permanently discriminated
in workplace, prior contractual agreement you signed does not count, prior orders of
the courts do not count, your Decree of Divorce does not count, and all these
happened to you because you took actions to fulfil your duties and responsibility per
the contractual agreement, per the orders of the courts, per Decree of Divorce, per
Federal laws, and per the laws applicable to all 50 states. Lower Court’s order and
Supreme Court of Virginia’s January 11, 2021 order (which refused my Petition to
Appeal) affirming lower court’s order (here both orders are collectively called the
“Order”) set a Precedence which unintentionally not only created an inconsistency
with the fundamental doctrines and laws on validity and enforceability of contractual
agreement, of orders of the courts, of decree of divorce across all 5 0 states in the US,
but also created a contradiction with Constitution’s 1st Amendment and 14th
Amendment, with the Right of Freedom of Association, with Title VII of Civil
Rights Acts, with Anti-Discrimination Act, and with IRS Codes, When this case is
cited as a Precedence in future cases, severe consequences such as the ones described
above can occur to people in VA and in the US without just and contrary to these
long-existing and robust Laws.
One unintended consequence of the Precedence set by the Order allows a
party’s behavior of creating illegal, illegitimate, fraudulent rules and documents etc.

to defeat prior existing agreement, orders and Decree. It supported my ex-husband’s
same behavior of falsifying documents and giving misrepresentations over the span
of 35 years, 1). at our marital home; 2). in his importing businesses where discovered
documents show he was charged for breach of contract and conversion and fraud
and misrepresentation, 236 F.3d 938 (8th Cir. 2001) Oriental Trade Co. Inc., v. Sam
G. Firetti and Bing Ran; 3). in AdSTM; 4). in Qi Tech and ForeData companies as
the United States government alleged in a pending Qui Tam lawsuit against him and
others, Case l:18-cv-00795-CMG-MSN.
This case relates to AdSTM, a company I founded in 1996, owned, established
and built, then later co-owned in 2008 with my ex-husband Bing Ran (“Bing”). In
AdSTM, Bing treats me and influence others to treat me with the same/similar ho me
behavior as demonstrated in the record of completely depriving my own financial
rights, bully, abuse, violence, battery, forming agreements then violate each.
According to Federal law (such as IRS Code) and the laws universal to all 50
states, AdSTM as an S corporation splits its profit between 2 owners. In AdSTM:
revenue - expenses = profit, all profit belongs to individual owners as their own
personal properties, revenue - expenses - profit that belongs to owners = 0. AdSTM
is to have zero-bottom line. Bing’s personal property from the profit is Bing’s
property pool, my personal property from the profit is my property pool. During the
July 2008- July 31, 2017 nine-year period, AdSTM generated revenue of about

7°~A

$14M - $T6M per year with profit margin between 3% to at least 8%. AdSTM’s
profit is estimated to be about $825,000 per year. During these 9 years: the total
estimated profit AdSlM made is about $7,5000,000, about $3,750,000 of which is
Bing s private property pool, about $3,750,000 of which is my private property pool.
Lower court through two previous trials (for the time period ending July 31,
2017) found that Bing’s property pool has already paid Bing a certain amount, my
property pool has already paid me a lesser amount, lower court issued judgement so
that the amount from my property pool paid to me is equal to the amount paid from
Bing’s property pool to Bing.
Besides the amount of each of our personal property pool that has already
been paid to each of us, through July 31,2017, Bing ’ s pool is supposed to have about
$2,563,000 remaining but he has taken all the money in his pool as loans to himself
prior to July 31, 2017. My pool is supposed to have about $2,563,000 but Bing has
taken $181,000 from my pool as loans to himself, the remaining amount of my
personal property pool has been placed in AdSTM’s Fidelity Investment account by
Bing which had a balance of $2,382,901.42 on July 31,2017.
During trials, Bing testified to the following loans that he paid himself without
any promissory notes: about $550K prior to October 2014, $1,431 in Jan 2015,
$20,000 in March 2015, $70,000 and $9,193 in April 2015, $168,328 in June 2015,

7/-^

$435,879 in July 2015, $10,000 in October 2015, $811,727 in Feb. 2016, $301,430
in Oct 2016, $346,410 in July 2017, Total is $2,744,000. The legal effect of the
lower court’s order as well as the Court of Appeal’s order deemed those are
legitimate loans and those loans continued to remain as Bing’s personal property.
What Bing and I had was an abusive marriage where Bing deemed his battery
of me is none of Fairfax County police’s business and he ordered police officer go
away. I obtained temporary protective order against Bing. At home, he would make
agreements with me, then he would make up new rules to violate those agreements
leading to a cyclic behavior of abuse and violence towards me. His abuse and
violence did not stop after we separated and later divorced in 2007. From October
2014 and on, he dared to play in the same way against me in court.
I have always served as the President and CEO since the beginning of AdSTM
in 1996 and 10 years later, AdSTM was generating about $16,000,000 annual
revenue performing government contracts in 5 Federal Agencies. Soon after Bing
and I separated in 2006, we signed a PSA (which gave our residence house to me)
and he began to attempt wrestling control of AdSTM from me. The PSA was
incorporated into our divorce decree in 2007. On October 15, 2008, Bing and I
signed the famous October 15, 2008 amendment to amend the PSA. We planned
not to incorporate this amendment into the Divorce Decree but abide to it, including
I sell him my residence house at half of the market price which I did. We agreed

L
7-2-A_________________________________
that in the event one ot us breach the amendment, then all deals have to be called off
and the Decreed PSA governs. Bing and I entered litigation in October 2014, the
order from that litigation was appealed, appellant court made reversal and remanded
the case. The result of the original litigation, the appeal and the remand solidified
the Golden Ruler status of the amendment (the “Golden Ruler” or “Golden Ruler
Amendment”): on May 13, 2016, it was incorporated into the Decree of Divorce
retroactively with an effective date of October 15,2008 to amend the PSA. Not only
the Golden Ruler permanently replaced the corresponding terms in the PSA, but it
also added provisions. Bing tried multiple times to deem it breached by me or by
him. He was not successful. The Golder Ruler Amendment, as a contractual
agreement, as orders by the courts, as a Decree of Divorce, according to the
fundamental doctrine and the laws of the 50 states, does not, cannot, shall not be do
away or expire, any other rules or documents created after October 15,2008 that are
not in conformance with it should be deemed not valid.
The Golden Ruler Amendment states: A). I, as an individual, not tied to or
depend on my officer positions or my board positions or how much stock I own m
AdSTM, have the ultimate saying in the management of AdSTM, I “delegate
functions” in management to Bing, any decision made by Bing must receive
agreement from me before decision implementation, I have the right to “veto” any
of his decisions. If I veto his decisions, he can suggest another decision and seek
5

73-4
my approval, and again, no decision can be implemented unless 1 approve it. It takes
2/3 of stock share in agreement in order to remove the “delegate functions” provision
or to remove the “veto” provision. B). I will always be the President and the
Secretary; Bing will always be the Chairman of the Board and Treasure. C). The
Board can only consist of me and Bing unless 100% stock share agree otherwise.
D). On dealing with stock share, conditions to purchase stock is unchanged in PSA
but the timing of purchase changed: after the date when AdSTM finishes its last 8(a)
contract (which according to AdSTM’s contract performance data the date is in
September 2012), or after Bing applies to the SBA and can secure his own minority
status with the SBA to receive his certification on qualifying AdSTM as the 8(a)
entity (Bing never received such certification from the SBA possibly due to his lack
of courage to apply or due to his qualification not adequate in the eyes of the SBA),
whichever is earlier, 2% of my stock can be sold to him, if other stock purchase
conditions in PSA are met.
For each of A), B), C), and D), Bing used the typical practice he perfected
through many years: he created documents and structures and rules to defeat the
Golden Ruler. I Petitioned to the Court in 2019 and condemned his such actions.
For item D) above, in a prior litigation proceeding, Bing presented a document
purportedly signed by me to sell 2% of my stock to him in 2010. That purported
document is not only not in compliance with the Golden Ruler on the timing of stock

74-4

purchase, it also does not meet the purchase requirement outlined in the PSA: Bing
must fully dedicate his full time to AdSTM in supporting me in running the business.
Discovered record shows that Bing did not dedicate his full time to AdSTM in
supporting me. In 2009, he involved himself with Qi Tech LLC, became Qi Tech’s
CEO, Director, and started to have ownership in Qi Tech. Records show Bing signed
government contracts as Qi Tech LLC’s CEO or its Director, Bing single handedly
opened Qi Tech LLC bank accounts, Bing signed hundreds of Qi Tech LLC’s
checks, many were to pay Bing himself. Bing also formed Virsys and VirTrade and
conducted businesses there. Thus, the purported stock sale document should be
thrown out.
In the legal proceedings commenced in 2019 that led to this appeal , no
evidence was presented in court on the stock share issue, but at the moment when
the lower court was about to sign the computer printed order, Bing’s counsel in one
split second of impromptu added one Handwritten sentence regarding the stock
share. Lower court signed. The Order is based on the complete void of any
evidence, it formed a contradiction with the terms and conditions required for the
2% stock purchase as specifically stated in PSA and in Golden Ruler, and it formed
a contradiction with the basic doctrine on evidence that is universal to all 50 states.
For item G) above, Bing presented to the lower court several Board
composition documents that were dated in 2014 and later, none include my name as

7S-4
a board member. Those documents were not in compliance with the Golden Ruler
thus should be thrown out.
For Item B) above, record shows that Bing produced documents to name Jen
Kim as the secretary and later to name her as the President of AdSTM. These
documents contradict with the Golden Ruler thus should be thrown out.
For item A) above, Bing first created a new stock share status for himself in
2014, then named himself only as the Board, then added Sergey Katsenelenbogen
onto the Board, then created a fraudulent, illegal, and illegitimate AdSTM by-law.
This AdSTM by-law stripped all of the President’s power and responsibilities
outlined in AdSTM’s original true by-law. All of these created by Bing and Bing’s
other illegal, fraudulent, fictitious documents and structures were illegitimate
because the way they were created and their contents are contrary to the Golden
Ruler, thus they should be thrown out.
Discovered records show that Bing’s behaviors in Qi Tech LLC and in
ForeDate caused him to be a defendant in a Qui Tam lawsuit; in 2018, Bing and
Gary Bell and Jen Kim and Sergey Katsenelenbogen’s actions caused AdSTM lose
the Top-Secrete Facility Clearance I earned for AdSTM in AdSTM’s early days,
caused AdSTM lose half of its contracts and half of its employees. In the end, facing
his own doing causing such destruction to AdSTM, Bing agreed to resign all of his

officer positions, board positions, any and all management functions, tor which 1
agreed.
Golden Ruler states, there is only one person I can delegate management
function to, that person was Bing prior to his complete departure from AdSTM, after
Bing chose to leave and I agreed, thus more than 2/3 of stock share have been in
agreement that I no longer need to delegate any function to him; all management and
leadership rest upon my shoulders and I have the complete liberty to manage
AdSTM in any way I chose to.

All of my actions have been completely in

compliance with the Golden Ruler, including paying myself loan from my own
property pool with promissory notes in accordance with IRS Codes on loans. Bing,
even though he no longer has any role in AdSTM, he thus without any legal standing
filed Petition to prevent me from managing the company and he demanded the court
to deprive millions of dollars of my own personal property and to rule I have no role
in AdSTM and to believe in his management delegation made prior to his complete
departure from AdSTM to Gary and Sergey and Jen and that these 3 people have all
the power in AdSTM, and I have none. Not only Golden Ruler states Bing not
allowed to implement any decision unless I approve and that he does not have rights
or authority to further delegate the functions I delegated to him, but also Virginia
laws state once a person leaves his position, any delegation or appointment he made

9

77-A

become void and mittrBihg’s position and claim and argument should be thrown
out because they are contrary to the Golden Rulers.
Sadly, Order agreed with Bing and then gave Bing what he wanted and some
more. The Order disregarded the contractual agreement, the Golden Ruler, the
PSA, prior orders of the courts relating to the Golden Ruler, and the Decree of
Divorce. The Order basically rendered these documents useless by contradicting
with the very basic and fundamental doctrine and laws on the validity and
enforceability of contractual agreement, on the orders of the courts, on Decree of
Divorce, and on S Corp, the very doctrine and laws long existed in all 50 states.
The Order deprived my fundamental rights of civil liberty and my property, it
created interference with AdSTM’s operation. Order also created contradictions
with IRS Codes on S Corp and on Loans, with Constitution’s 1st Amendment on
Freedom of Speech and with 14th Amendment on Freedom of Movement, with the
right to freedom of association, with Title VII of Civil Rights Acts, with AntiDiscrimination Act in workplace. This Petition also raises a question on whether
or not gender affects the justice that one seeks and receives in our society, gender
of parties, ofjudges, and ofjustices.
WHEREFORE,
I respectfully and sincerely plead to the foil Court to reverse the Order and
grant this Petition for Rehearing.
10

7 8-A
January 25,2021
N

Respec;

/

\

V

;

Alice Guan, pro se
4250 Alafaya Trail, #212-163
Oviedo, FL 32765
T: 407-402-8178
AliceGuanRopeJumper2020@gmail.com
AliceGuan2016@gmail.com
Also:
11654 Plaza America Drive
#286
Reston, VA 20190

CERTIFICATE OF TRANSMISSION AND SERVICE

I hereby certify that, on January 25, 2021,1 filed this Petition with the Court
by emailing a PDF file of this Petition to scvpfr@courts.gov, in the same email, I
also included Appellee’s counsels, Chris Schinstock at
cschinstock@schinstocklaw.com, and Kyle Bartol at kbartol@schinstocklaw.com.
li

janaary-25,2021

77-/4
>s

w
espectfully Yours,

/

Alici

/}
an, pro se

CERTIFICATE OF COMPLIANCE WITH WORD COUNT ANT) PACE
LIMIT
I certify that this Petition complies with the type-volume limitation. This
Petition 10 pages excluding cover page and certificates and signature, and it
contains 2586 words and uses a Times New Roman 14-point font and contains 197
lines of text.
Januaiy 25, 2021

Alice Guan, pro se

12

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 1 of 16 PagelD# 617

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
)

ALICE GUAN,

)
)
)
)

Plaintiff,

)

v.

Case No. 1:21 -cv-00752-RDA-TCB

)
)
)
)

GARY BELL, et al„
Defendants.

MEMORANDUM IN SUPPORT OF DEFENDANTS
GARY BELL, SERGEY KATSENELENBOGEN AND JEN KIM’S
MOTION TO DISMISS PLAINTIFF’S Ist AMENDED COMPLAINT
Defendants Gary Bell, Sergey Katsenelenbogen and Jen Kim (hereinafter the “AdSTM
Employees”) file this Memorandum in Support of their Motion to Dismiss (“Updated
Memorandum”), pursuant to Rules 12(b)(1) and 12(b)(6) of the Federal Rules of Civil
Procedure, respectfully requesting the court to dismiss, with prejudice, the entirety of plaintiffs
claims against the AdSTM Employees that are set forth in her 1st Amended Complaint
(“Amended Complaint”). This Memorandum is updated from the AdSTM’s memorandum in
support of its initial motion to dismiss in order to address the four new counts (Counts I-IV) that
are set forth in Plaintiff’s 1st Amended Complaint (Dkt. 17) as well as the additional allegations.
Plaintiff, Alice Guan, attempts in her pro se Amended Complaint to do what the law does
not permit: having a federal court provide appellate review of a final order entered by a Virginia
state court that was appealed and affirmed by the Supreme Court of Virginia. Along with the
AdSTM Employees, plaintiff named as defendants the Honorable James C. Clark of the
Alexandria Circuit Court (18th Judicial Circuit of Virginia), who entered the May 22, 2019 Order

1

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 2 of 16 PagelD# 618

(“May 22 Order”) about which plaintiff disagrees, and each Justice for the Supreme Court of
Virginia as a result of that court affirming the May 22 Order. For that reason, and a host of other
reasons set forth below, plaintiffs Amended Complaint should be dismissed with prejudice.
PROCEDURAL AND FACTUAL BACKGROUND
Plaintiff has spent years litigating myriad issues relating to her ownership interest in
AdSTM, including litigating claims against her former husband, Bing Ran (“Mr. Ran”), and
claims against AdSTM. AdSTM is a corporation formed under Virginia law, in the business of
government contracts, owned by Mr. Ran and the plaintiff. Exactly which of either Mr. Ran or
plaintiff was the majority owner, legally permitted to control the management and direction of
AdSTM, was a critical issue that was hotly contested—and resolved by final order in Mr. Ran’s
favor—in the Virginia state courts.
Specifically, on May 22, 2019, the Honorable James C. Clark of the Alexandria Circuit
Court entered an Order declaring plaintiff as the minority shareholder, owning 49% of AdSTM,
and permanently enjoined her “from representing to third parties that she is the 51% majority
shareholder of AdSTM, as she is 49%.” Exhibit 1; Pl.’s Compl. Exhibit F. Plaintiff appealed that
decision to the Court of Appeals for Virginia, which affirmed the domestic relations portion of
the Circuit Court’s ruling and transferred the corporate portion to the Supreme Court of Virginia.
Exhibit 2. On January 11,2021, the Supreme Court of Virginia found that “there is no reversible
error in the judgment complained of. Accordingly, the Court refuses the petition for appeal.”
Exhibit 3; Pl.’s Compl. Exhibit H. The ownership issue was fully briefed by the plaintiff and Mr.
Ran. See Exhibits 4 and 5.
Unsatisfied with her day in the Virginia court system, plaintiff now improperly attempts
to re-litigate the same issues before this federal court. During the brief time since plaintiff filed

2

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 3 of 16 PagelD# 619

her original complaint on June 23, 2021, plaintiff has also filed the following pleadings: 1) 1st
Amended Complaint (Dkt. 17); 2) Motion to Add 5 Defendants (parties) (Dkt. 19); 3) Motion to
Moot (Dkt. 18); and 4) Motion to Withdraw Motion to Add 5 Defendants (parties)) (Dkt. 37).
This Updated Memorandum is filed within fourteen days after plaintiff amended her complaint.
STANDARD OF REVIEW
A 12(b)(6) motion should be granted where the plaintiff has failed to “state a plausible
claim for relief’ under Rule 8(a). Walters v. McMahan, 684 F.3d 435, 439 (4th Cir. 2012)
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009)). To survive a motion to dismiss under Fed.
R. Civ. P. 12(b)(6), a complaint must allege facts, as distinct from mere labels and conclusions,
giving rise to a plausible, rather than merely conceivable, entitlement to relief. Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007); Ashcroft v. Iqbal, 556 U.S. 662, 684 (2009); Francis v.
Giacomelli, 588 F.3d 186, 193 (4th Cir. 2009) (“plaintiffs may [only] proceed into the litigation
process when their complaints are justified by both law and fact.” (parenthetical added for
clarity)). Accordingly, each of the Counts of the Complaint should be dismissed for failure to
state a claim pursuant to Fed. R. Civ. P. 12(b)(6) and the pleading standards set forth in
Twombly/Iqbal. Twombly, 550 U.S. at 570; Iqbal, 556 U.S. at 684; Willner v. Dimon, 849 F.3d
93,112 (4th Cir. 2017); Francis, 588 F.3d at 193.
ARGUMENT
Nothing in the plaintiff’s Amended Complaint changes the fact that her allegations suffer
from numerous legal deficiencies, rooted in the fundamental legal doctrines that litigants are not
permitted to re-litigate the same issue twice, federal courts are not permitted to sit as appellate
courts of state courts, and 28 U.S.C. § 1983 actions, aimed at actors operating under the color of
state law, are wholly inapplicable in this matter, much less against the AdSTM Employees.

3

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 4 of 16 PagelD# 620

I. PLAINTIFF’S CLAIMS ARE BARRED BY CLAIM AND ISSUE PRECLUSION
Federal courts look to state law to determine whether a claim is barred by res judicata.
Davison v. Rose, 2017 WL 3251293, at *6 (E.D. Va. 2017) (“In considering the preclusive effect
of a state court’s dismissal with prejudice, federal courts apply applicable state law rules.”). The
Supreme Court of Virginia, in Funny Guy, LLC v. Lecego, LLC, 293 Va. 135 (2017), conducted
an extensive review of Virginia’s res judicata jurisprudence and set the framework for
determining whether a claim is barred by res judicata under Rule 1:6 of the Rules of the Supreme
Court of Virginia. In doing so, the court summarized with approval two commentators’ succinct
summary of res judicata: “as Henry Black put it, litigants must ‘make the most of their day in
court»i and “[w]ith equal clarity, it could also be said: ‘The law should afford one full, fair
hearing relating to a particular problem—but not two.’”2 Res judicata includes claim preclusion
and issue preclusion, which both apply in this case.
In Funny Guy, the court made clear that “it does not matter that the second suit includes
alternative legal theories or would require evidence not present in the first suit.” Funny Guy, 293
Va. at 150. Rather, a court should follow the “same conduct, transaction or occurrence” test in
Rule 1:6(a) of the Rules of the Supreme Court of Virginia to determine whether res judicata bars
subsequent litigation. Rule l:6(a), entitled “Res Judicata Claim Preclusion,” provides:
A party whose claim for relief arising from identified conduct, a transaction, or an
occurrence, is decided on the merits by a final judgment, is forever barred from
prosecuting any second or subsequent civil action against the same opposing party
or parties on any claim or cause of action that arises from that same conduct,
transaction or occurrence, whether or not the legal theory or rights asserted in the
second or subsequent action were raised in the prior lawsuit, and regardless of the
legal elements or the evidence upon which any claims in the prior proceeding
depended, or the particular remedies sought.
1 Citing, 2 Black, supra note 5, § 731, at 1096.
2 Citing, Kent Sinclair, Guide to Virginia Law & Equity Reform and Other Landmark Changes §
11.01, at 246 (2006).
4

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 5 of 16 PagelD# 621

£-4-4
(emphasis added). Further, Rule 1:6(d) specifies that “[f]or purposes of this [res judicata] Rule,
party or parties include all named parties and those in privity.”
“[DJeciding what constitutes a single transaction or occurrence under Rule 1:6 should be
a practical analysis. The proper approach asks ‘whether: (i) the facts are related in time, space,
origin, or motivation; whether they form a convenient trial unit, and whether their treatment as a
unit conforms to the parties’ expectations or business understanding or usage.” Id. at 154. The
factors should be “considered ‘pragmatically’ with a view toward uncovering the true underlying
dispute between the parties.” Id. at 154-55.
Issue preclusion (sometimes called collateral estoppel) is:
the preclusive effect impacting [ ] a subsequent action based upon a collateral and
different cause of action.” Id. at 671. In other words, when bringing a second
cause of action “the parties to the first action and their privies are precluded from
litigating any issue of fact actually litigated and essential to a valid and final
personal judgment in the first action.” Id.', see also Funny Guy, 293 Va. at 142
(“Issue preclusion bars re-litigation of common factual issues between the same
or related parties.” citing Rawlings v. Lopez, 267 Va. 4, 4-5 (2004)).
Simpkins v. Ocwen Loan Servicing, LLC, 2018 WL 11239080, at *3 (E.D.Va. 2018).
Here, when measured against the pragmatic approach set forth in Funny Guy, plaintiff
has previously litigated each of her claims and the key fact of ownership filed in the case at bar.
Motivating each of her claims and factual allegations is her underlying assertion that she is the
true majority owner of AdSTM. This assertion was litigated and rejected by the Alexandria
Circuit Court and affirmed by the Supreme Court of Virginia. This same prior decision is
preclusive to plaintiffs claims not only as against the prior defendant, Mr. Ran, but also to his
privities, which include each of the AdSTM Employees.
By her own words, plaintiff requests this court to “vacate the aforementioned state court
orders, judgement, rulings, opinions, and rationales” from the Virginia state court litigation.

5

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 6 of 16 PagelD# 622

8$'*.>
(Am. Compl. at p. 43) (“WHEREFORE” clause (a)). Each count in the Amended Complaint
arises from plaintiffs incorrect assertion that she is the 51% majority shareholder of AdSTM,
despite the fact that her respective ownership in AdSTM was the subject of past adjudication in
Virginia courts that ultimately determined plaintiff to be the 49% minority shareholder.
The May 22 Order not only found that plaintiff was the minority shareholder, owning
49% of AdSTM, it also “permanently enjoined, until further order of this Court from
representing to third parties that she is the 51% majority shareholder of AdSTM, as she is 49%.”
Exhibit 1. The May 22 Order also barred plaintiff from contacting AdSTM’s employees and
attorneys: “A permanent injunction against the Plaintiff is hereby granted, until further order of
this Court, enjoining her from having any contact with any AdSTM employees, attorneys and/or
clients as well as enjoining her from having any physical access to any of AdSTM’s offices and
properties.” Id. Thus, the May 22 Order fully addresses the same underlying dispute that plaintiff
seeks to re-raise in this litigation: namely her contention that she is the true 51% owner. Her
allegations fall squarely within the May 22 Order. For example, plaintiff alleges that the AdSTM
Employees “conspired to deprive my rights in managing AdSTM,” (Am. Compl. at U 103). And
she demands that AdSTM Employees “turn over to [plaintiff] all controls, all records, all
facilities, all assets, all financial and business accounts, all contracts, all pending proposals, all
customers, all pending customers, all teaming partners, all pending teaming partners of AdSTM,”
(Am. Compl. at f 100). None of these demands are possible given the May 22 Order.
The res judicata and issue preclusion analysis precludes plaintiffs claims and key factual
ownership assertion against the AdSTM Employees because the AdSTM Employees are in
privity to the subject of the dispute that gave rise to the May 22 Order. Rule 1:6(a) and (d)
provides that the term “party or parties” includes “all named parties and those in privity.” In the

6

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 7 of 16 PagelD# 623

context of res judicata or issue preclusion, privity “deals with a person’s relationship to the
subject matter of the litigation.” Manning v. South Carolina Dep ’t of Highway & Pub. Transp.,
914 F.2d 44,48 (4th Cir. 1990). “The touchstone of privity for purposes of res judicata is that a
party’s interest is so identical with another that representation by one party is representation of
the other’s legal right.” Lee v. Spoden, 290 Va. 235, 248 (2015). “Virginia courts typically find
privity when the parties share a contractual relationship, owe some kind of legal duty to each
other, or have another legal relationship such as co-ownership.” Columbia Gas Transmission,
LLC v. DavidN. Martin Revocable Trust, 833 F.Supp.2d 552, 558 (E.D.Va. 2011).
When viewed pragmatically and within the expectations and business understanding of
the plaintiff and Mr. Ran, regarding their litigation over the majority ownership of AdSTM, they
necessarily understood that whomever prevailed in that dispute, establishing majority control,
would be able to manage AdSTM and its employees. As it relates to the ownership dispute
between its two owners, the plaintiff and Mr. Ran, AdSTM was in privity to that dispute and the
accompanying ownership factual allegations because the outcome determined which party
controlled AdSTM and directed its actions. Moreover, “[sjince a corporation is merely a legal
entity wholly created by law, it can only act though its agents, officers, and employees ....”
Selman v. Am. Sports Underwriters, Inc. etal., 697 F. Supp. 225 238 (W.D. Va. 1988).
Therefore, as it relates to the AdSTM Employees, they are also in privity with the ownership
dispute between Mr. Ran and the plaintiff because they should be treated either as a part of
AdSTM - merely acting as its agents, officers, and employees - or considered to be equally close
to the plaintiff and Mr. Ran’s ownership dispute as AdSTM itself. As set forth in Columbia Gas,
the relationship to the ownership dispute between Mr. Ran and the plaintiff is tied together with
AdSTM and the AdSTM Employees by co-ownership (Mr. Ran and the plaintiff) and the legal

7

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 8 of 16 PagelD# 624

duties, including fiduciary duties, the AdSTM employees owe to AdSTM. 833 F.Supp.2d at 558.
As Mr. Ran and the AdSTM Employees are in privity with each other, plaintiffs Amended
Complaint against the AdSTM Employees is barred by the doctrines of claim preclusion and
issue preclusion underlying res judicata.
II. PLAINTIFF’S COMPLAINT IS BARRED BY THE ROOKER-FELDMAN DOCTRINE
Plaintiffs Amended Complaint in its entirety should be dismissed because it is plainly
precluded by the Rooker-Feldman Doctrine. “This doctrine construes the federal jurisdictional
statues as precluding the exercise ofjurisdiction by district courts to hear ‘cases brought by statecourt losers complaining of injuries caused by state-court judgments rendered before the district
court proceedings commenced and inviting district court review and rejection of those
judgments.’” Field Auto City, Inc. v. Gen. Motors Corp., 476 F.Supp.2d 545, 551 (E.D. Ya.
2007) (quoting Exxon Mobil Corp. v. Saudi Basic Indus., 544 U.S. 280, 284 (2005)). The
Rooker-Feldman doctrine applies “where a party in effect seeks to take an appeal of an
unfavorable state-court decision to a lower federal court.” Field Auto City, 476 F.Supp.2d at 55152. There, the court held, relating to a similar § 1983 claim, that “district courts lack power to
‘reverse or modify’ a state court decree to ‘scrutinize or invalidate’ an individual state court
judgment, or to ‘overturn an injurious state court judgment.’” Id. at 552 (quoting Adkins v.
Rumsfeld, 464 F.3d 456,464 (4th Cir. 2006)).
Plaintiffs attempt to re-litigate what she considers a disadvantageous decision of the
Circuit Court of Alexandria on the issue of corporate ownership - a decision ultimately
determined by the Supreme Court of Virginia to be free of reversible error - is a patent violation
of the Rooker-Feldman doctrine. Plaintiffs §1983 counts allege that the AdSTM Employees, the
Circuit Court for the City of Alexandria, and all the justices of the Virginia Supreme Court

8

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 9 of 16 PagelD# 625

SR'*
violated her rights to controlling ownership in AdSTM. Plaintiff alleges that her harm is a result
of the Virginia court rulings, which is her basis for adding both Judge Clark and the Justices of
the Supreme Court of Virginia as defendants in this case. See Field Auto City, 476 F.Supp.2d at
554 (stating that the Rooker-Feldman doctrine is effective when “the injury complained of [is]..
. caused by the state court judgment”). In reality, the corporate ownership issue was the subject
of Judge Clark’s Order. Exhibit 1. And this ruling has been sustained at all levels of the Virginia
judicial system. Exhibits 2 and 3. To allow plaintiffs § 1983 counts to go forward would force
this court into an impermissible judicial review of state court judgments.
III. THE ADSTM EMPLOYEES’ ACTIONS ARE NOT SUBJECT TO A § 1983 CLAIM
Plaintiffs § 1983 counts (Counts V, VI and VII) against the AdSTM Employees must be
dismissed with prejudice because these individuals are merely private citizens working in the
private sector, with no official state positions. By virtue of their positions and status, they are
incapable of engaging in state action, as is required to set forth a § 1983 claim.
As this court stated in Field Auto, “[a] plaintiff suing under § 1983 must allege (and
prove) that the defendants acted ‘under color of law’ to deprive plaintiff of its constitutional or
federal statutory rights.” Field Auto City, 476 F.Supp.2d at 554. A deprivation of rights is only
actionable under § 1983 if: (i) it is ‘caused by the exercise of some right or privilege created by
the State or by a rule of conduct imposed by the state or by a person for whom the state is
responsible,’ and (ii) the party responsible for the deprivation is ‘a person who can fairly be said
to be a state actor.’” Id. (quoting Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 50 (1999)).
The AdSTM Employees are private individuals and corporate officers of AdSTM. The
entirety of the actions about which plaintiff complains are that the AdSTM Employees were
involved, as corporate officers and employees, in litigation tasks in AdSTM related litigation.

9

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 10 of 16 PagelD# 626

They are not public employees under any stretch of tHe”imagihationrFurth'ermore7any-argumentthat their actions are joint state action would be groundless “as the Supreme Court... made
clear... ‘merely resorting to the courts and being on the winning side of a lawsuit does not make
a party a co-conspirator or joint actor with the judge.’” Field Auto City, 476 F.Supp.2d at 555.
IV. NO DIVERSITY JURISDICTION EXISTS
In addition to not pleading any viable federal question against the AdSTM Employees,
diversity jurisdiction does not exist here because plaintiff alleges that she is a resident of the
Commonwealth of Virginia (Am. Compl. at ^ 1) and, at the same time, most of the defendants in
this case are citizens of the Commonwealth of Virginia (Am. Compl. at fflj 3 and 7). Plaintiff
cannot merely state that diversity jurisdiction exists and make it so. {See Compl. at 111). As the
United States Supreme Court has routinely held, “a congressional mandate that diversity
jurisdiction is not to be available when any plaintiff is a citizen of the same State as any
defendant.” Owen Equip. & Erection Co. v. Kroger, 437 U.S. 365, 373 (1978). Plaintiffs own
complaint demonstrates that complete diversity does not exist and this court consequently does
not have diversity jurisdiction over this case.
V. THE COURT SHOULD DECLINE TO EXERCISE SUPPLEMENTAL JURISDICTION
As plaintiffs federal question claim of § 1983 are meritless and should be dismissed,
Counts I to IV and VIII to XI, which are plaintiffs remaining alleged state law claims against the
AdSTM Employees, should also be dismissed in an exercise of this Court’s authority under 28
U.S.C. § 1367(c)(3) as good cause exists for declining supplemental jurisdiction. See Shanaghan
v. Cahill, 58 F.3d 106, 110 (4th Cir. 1995) (discussing the wide latitude enjoyed by federal
courts when determining whether to retain jurisdiction over a plaintiffs remaining state claim
when all federal claims have been dismissed).

10

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 11 of 16 PagelD# 627

As mentioned throughout this brief, plaintifFs claims are nothing more than Her attempt to
relitigate state law claims that were resolved against her. Dismissal of her state law claims “most
sensibly accommodates a range of concerns and values” to the parties and the court, including
convenience and fairness to the parties, the existence of any underlying issues of federal policy,
comity, and considerations ofjudicial economy. Id. (referencing Camegie-Mellon Univ. v.
Cohill, 488 U.S. 343, 350 n. 7 (1988)). It is unfair to require the AdSTM Employees to relitigate
claims relating to facts about which Virginia courts have exhaustively handled and conclusively
resolved. Plaintiff simply refusing to accept the fact that the Virginia state courts have
determined her to be a minority shareholder is not a legitimate justification to be in federal court.
See Allstate Ins. Co. v. Hechinger Co., 982 F. Supp. 1169, at 1175 (E.D. Va. 1997) (noting that
abstention is proper if the federal action duplicates the state court proceeding, and that to qualify
as duplicative, both cases need not be identical; rather, both cases must include substantially the
same parties litigating substantially the same issues). AdSTM Employees, as well as this Court,
have yet to expend significant resources in responding to plaintifFs baseless and vague state law
claims that are mere distractions from plaintifFs main purpose in filing this Complaint:
recalculating ownership in AdSTM. Crumble v. Am. Bus. Mortg. Servs, Inc., 2003 WL
24198400, at *2 (E.D. Va. 2003) (relying on Cohill, 484 U.S. at 350 n. 7). Thus, the Court
should decline to exercise supplemental jurisdiction and dismiss Counts I-IV and VIII to XI.
VI. THE STATE LAW CLAIMS ARE MERITLESS TO THE EXTENT THE COURT
EXERCISES SUPPLEMENTAL JURISDICTION,
a. Plaintiff Lacks Standing to Assert a Business Conspiracy Claim and
the Claim is Barred by Intracorporate Immunity
PlaintifFs conspiracy counts (Counts I and VIII) against the AdSTM Employees fail
because (1) plaintiff does not have standing to file these conspiracy claims, individually; (2) any

11

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 12 of 16 PagelD# 628

HI-A
conspiracy claim is barred bv the intracorporate-iffltQ^itv-dQGteme^and-GljjlaintifFs claims are
entirely frivolous and fail to allege factual support.
First, any business conspiracy claim would belong to AdSTM and not plaintiff,
individually. Johnson v. Bella Gravida, 105 Va. Cir. 350, at * 3 (Va. Cir. Ct., July 20,2020)
(holding plaintiff shareholders lacked standing to bring a conspiracy lawsuit against company
employees and claim must be brought through a derivative action). In her Amended Complaint,
plaintiff added a new count (Count I) for “Conspiracy.” This Count I has the same insufficient
allegations as those set forth in her business conspiracy Count IV of her original Complaint and
VIII of her Amended Complaint. The alleged damages in both conspiracy counts include as
damages suffered the lost values of her “profit earning from AdSTM” and “lost the opportunity
to generate contracts and increase revenue for AdSTM.” Am. Compl. at

82 and 104. To the

extent that any conspiracy claim exists - none does - these claims would properly belong to
AdSTM and not the plaintiff. Bella Gravida, 105 Va. Cir. 350, at * 3.
Second, the doctrine of intracorporate immunity holds that “a conspiracy between a
corporation and the agents of that corporation who are acting in the scope of their employment is
a legal impossibility,” Selman, 697 F. Supp. at 238, for the same reason as previously stated
because “a corporation is merely a legal entity wholly created by law, it can only act though its
agents, officers, and employees. This immunity is not destroyed when employees are sued as
individuals.” Id. Here, all employees were working on behalf of AdSTM and are protected by the
intracorporate immunity doctrine. Id. and Bella Gravida, 105 Va. Cir. 350, at * 4.
Third, the plaintiff’s conspiracy claims fall far short of the pleading standards required by
Rule 8(a) and Iqbal!Twombly. Rather, her allegation are fanciful and entirely frivolous. Plaintiff
fails to allege how the defendants unlawfully conspired with one another, much less allege

12

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 13 of 16 PagelD# 629

conspiracy witirt!T(iTequired-parti€ttlaritv--set-forthin ^///? Recovery Communities, Inc. v. Top
Seek, LLC, 355 F.Supp.3d 416 (E.D. Va. 2018) (citing Multi-Channel TV Cable Co. v.
Charlottesville Quality Cable Operating Co., 330 F.Supp.2d 700, 706 (E.D. Va. 2004)). Her
Amended Complaint alleges that the AdSTM Employees conspired with AdSTM’s counsel
without any alleged factual basis. There is nothing illegal in AdSTM hiring counsel.
b. Plaintiff Fails to Allege a Viable Claim for Abuse of Process
Plaintiff fails to allege a legal basis for abuse of process under Virginia law and this count
should be dismissed. In Virginia, “[t]o prevail in a cause of action for abuse of process a plaintiff
must plead and prove ‘(1) the existence of an ulterior purpose; and (2) an act in the use of the
process not proper in the regular prosecution of the proceedings.” Montgomery v. McDaniel, 271
Va. 465, 469 (2006). “A claim for abuse of process lies for ‘improper use of the process after it
has been issued.’” Smith v. Miller and Smith at Pembroke, LLC, 84 Va. Cir. 64, at *6 (Va. Cir.
Ct., Dec. 14, 2011). At a minimum, in this case, plaintiff fails to plead any facts from which the
court can infer that the AdSTM Employees improperly used process after it has been issued.
Plaintiff’s abuse of process claim is that AdSTM filed a lawsuit against her at the
AdSTM Employee’s direction for the approximately $2.3 million she removed from AdSTM’s
bank account. (Compl. at

82-83). Plaintiff states no facts showing the AdSTM Employees

improperly used process after it was issued, as Virginia law requires. It can only be inferred from
her complaint that the alleged misuse of process is based upon the AdSTM serving a complaint
and summons on her. (Compl. at K 83). But this is not an improper use of process as “[t]he
institution of legal proceedings—no matter the purpose—is insufficient to survive demurrer for
abuse of process if the Defendant did not commit any abusive acts after the institution of legal
proceedings.” Smith, 84 Va. Cir. 64, at *6. The abuse of process count should be dismissed.

13

Case 1:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 14 of 16 PagelD# 630

<?3-4
~c. Piaintiff-baeks-Standing to Assert An Accounting Claim
Plaintiffs claim for an accounting against the AdSTM Employees should be dismissed
because any such claim can only be brought derivatively under Virginia law. The Supreme
Court of Virginia has held that “corporate shareholders cannot bring individual, direct suits
against officers or directors for breach of fiduciary duty, but instead shareholders must seek
their remedy derivatively on behalf of the corporation.” Remora Invs., LLC v. Orr, 277 Va. 316,
323 (Va. 2009) (citing Simmons v. Miller, 261 Va. 561, 576 (Va. 2001)). In Simmons, the court
held that this same requirement exists in closely held corporations. Simmons, 261 Va. at 576.
Here, plaintiff has failed to meet any of the requirements to file a derivative claim and instead is
attempting a direct action against AdSTM’s company officers. This is contrary to Virginia law
and should be dismissed. Even if she somehow pled a harm cognizable under an Accounting
theoiy, plaintiffs allegations would still fail under Rule 8(a) and Iqbal!Twombly.
d. False Representation is Not a Cause of Action Under Virginia Law
Plaintiffs Count VI against Gary Bell must be dismissed as there is no cause of action
under Virginia law for false representation. In this count, plaintiff alleges that Gary Bell made
false representations to the Commonwealth of Virginia concerning the identity of the corporate
officers of AdSTM. (Compl. at f 57). Although her allegation is untrue, plaintiff does not have a
false representation legal claim under Virginia law relating to comments Mr. Bell made to the
Commonwealth of Virginia. Count VI should therefore be dismissed with prejudice. Even if such
a claim existed, plaintiffs allegations would still fail under Rule 8(a) and Iqbal/Twombly.
e. Bribery is Not a Cause of Action Under Virginia
Bribery is forbidden is Virginia as a punishable crime as set forth in Virginia Code §
18.2-438. It is not, however, recognized in Virginia as a private cause of action. Therefore,

14

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 15 of 16 PagelD# 631

<?4~v4
Counrtf7?fT)laintiff-s-Amended Complaint should be dismissed with prejudice. Even if such a
claim existed, plaintiffs allegations would still fail under Rule 8(a) and Iqbal!Twombly.
f. Interference with Decree Performance is Not a Cause of Action
Count IV, Interference with Decree Performance is not a recognizable cause of action
under Virginia law, and should be dismissed with prejudice. Even if such a claim existed,
plaintiffs allegations would still fail under Rule 8(a) and Iqbal! Twombly.
g. Plaintiffs Private Nuisance Claim Fails Because No Real Property is at Issue
Private nuisance under Virginia law relates to harm against one’s enjoyment to real
property. See Martin v. Moore, 263 Va. 640, 648 (2002). None of plaintiff s allegations relate to
any real property. For that reason, Count III should be dismissed. Even if she somehow pled a
harm cognizable under a Private Nuisance theory, plaintiffs allegations would still fail under
Rule 8(a) and Iqbal!Twombly.
CONCLUSION
For the reasons set forth above, defendants, Gary Bell, Sergey Katsenelenbogen and Jen
Kim, respectfully request this court to dismiss plaintiffs 1st Amended Complaint in its entirety.
Date: July 29, 2021

Respectfully submitted,
GARY BELL, SERGEY KATSENELENBOGEN
AND JEN KIM
By Counsel
/s/ James B. Kinsel
James B. Kinsel (VSB No. 44247)
PROTORAE LAW PLLC
1921 Gallows Road, Ninth Floor
Tysons, Virginia 22182
Tel.: (703) 749-8507
Fax: (703) 942-6758
jkinsel@protoraelaw.com
Counselfor Defendants Gary Bell, Sergey
Katsenelenbogen and Jen Kim
15

Case l:21-cv-00752-RDA-TCB Document 41 Filed 07/29/21 Page 16 of 16 PagelD# 632

CERTIFICATE OF SERVICE
I hereby certify that on July 29, 2021, a copy of the foregoing was filed withrthe'Clerk-ofCourt using the CM/ECF system, which will send notification of such filing (NEF) to counsel for
the parties and a copy was served via email and first-class mail, postage prepaid to:.
Alice Guan, pro se
11654 Plaza America Drive
Reston, Virginia 20190
Aliceguan2021 @gmail.com
/s/ James B. Kinsel
James B. Kinsel

16

